Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




WELFARE ADMINISTRATIVE COSTS
                       OFFICE OF INSPE~OR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES
The OIG’S Office of Audit Services (OAS) provides all auditing sefices for HHS, either by
conducting audits with its own audit resources or by overseeing-audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE      OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE       OF EVALUATION               AND     INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Chicago Regional Office, Region V, under the direction of
William C. Moran, Regional Inspector General and Natalie A. Coen, Deputy Regional
Inspector General. Project staffi Jennifer Antico and W. Mark Krushat.




For additional copies of this report, please call the Chicago regional office at (312) 353-4124.
                 EXECUTIVE                         SUMMARY


PURPOSE

To examine alternative funding arrangements for administrative costs in the Aid to
Families with Dependent Children (AFDC), Medicaid and Food Stamp programs.


BACKGROUND

Administrative Costs

Administrative costs are the expenses States incur to administer their programs. In 1993,
States charged the Federal Government approximately $5.7 billion to administer three
closely linked welfare programs, the AFDC, Medicaid, and Food Stamp programs. The
Federal Government pays roughly half of the administrative costs for these programs,
and State and local governments pay the remaining share. The payment system is a cost
reimbursement system, which means that the States tell the Federal Government how
much they have spent and the Federal Government reimburses them for roughly half
their costs.

Reimbursement    Problems

As we have learned from this study, as well as other studies on this topic, particularly the
OIG report, “Reforming the System for the Determination of State and Local
Government Administrative/Indirect Costs” (A-12-92-OO014), there are two major
problems with this cost reimbursement system: accountability and predictability.

The accountability issues are very basic. We are not sure what we are paying for and
whether the funds are being spent in a cost-effective manner. The way that the current
system operates, it would be too resource intensive to even try to find out the answers.
We do know that some States spend double and triple what other States spend per
recipient, without any clear relation to outcomes. There are a lot of reasons offered as
to why this is the case, but no solid evaluated data to confirm the degree to which these
reasons affect administrative costs. We also know that we could find no significant
correlation between the costs incurred and the recipients served on an individual State-
by-State basis.

The predictability issue means that the Federal Government       is in the position of not
knowing how much the States are going to charge in future       years. While predictions can
be made based on historical patterns, there is no assurance     that there will not be years
where the costs will be higher than predicted. This, in fact,   has occurred in the past.

We believe that a lack of accountability and predictability in the current cost-based
reimbursement system are a vulnerability for the Federal Government. We believe that


                                               1
    the current system should be replaced by one that would provide adequate funding to the
    States, along with incentives for efficient operations and decreased oversight and
    monitoring on the part of the Federal Government.

    ALTERNATIVE       FUNDING OPTIONS FOR ADMINISTRATIVE COSTS

    The primary purpose of this report is to examine alternative funding arrangements for
    the administration of the AFDC, Medicaid, and Food Stamp programs. We offer this as
    a follow-up to the broader report cited above. Here, in this report, we describe options
    that provide incentives to promote greater efficiency in the system rather than relying on
    increased monitoring and oversight activities which, in turn, add to administrative costs.

    We present five of many possible options for funding administrative costs. C)ur intention
    is to present the general concepts behind these options in order to assess the relative
    merits of each. We fully expect that if one of these options is implemented, further
    refinement and adjustment would be required. Regardless of which option is selected for
    further consideration, it should be evaluated against certain criteria. These criteria are:

    1)	   Adequacy: Funds should be adequate for the effective and efficient administration
          of these programs.

    2)	   F?&i.bilzlyand Adm.hknztive Relief The States and the Federal Government
          should have greater flexibility in using their administrative funds, and reduce the
          administrative burden by cutting back on the need for data collection and
          intensive monitoring.

    3)     Chr&: The rate of growth of administrative costs should be controlled.

    4)    -S         Fundingdisparity among the States should be reduced.

    5)	   Bedictubility: There should be greater predictability in the system as a result of
          prospective planning and budgeting for administrative costs.

    We summarize the five alternative funding options below.

    option 1: Reduce Medicaid Special Match Rates to 50 Percent. This option would
    reduce special match rates to 50 percent for the Medicaid program, similar to the
    reduction that has occurred for the AFDC and Food Stamp programs. This option
    would result in reduced Federal expenditures for administrative costs, but would not
    reduce the administrative burden or disparity among States. It would not enhance
    predictability for budgeting purposes.

    option 2 Block GranL This option would combine the administrative costs of all three
    programs at a base year level, then provide inflationary increases each succeeding year.
    This approach would reduce the administrative burden and enhance budgeting
    predictability. It would reduce Federal costs in so far as the rate of increase under the


                                                  ii


—
current system is larger than inflation. It would have no impact on the disparity among
States. It is not flexible enough to account for changes in caseload or other special needs
that might arise within an individual State,

Option 3: Standard Cost Per Recipient. This option would fund each State for
administrative  costs based on a standard per recipient allocation amount. Under this
option, the disparity among States would be addressed and the administrative  burden for
the Federal Government     and the States would be reduced. This option may or may not
generate Federal savings depending on certain factors such as the number of recipients in
the program. In years where there is a large increase in the number of recipients, this
option could be more costly than the current system. It would not provide for any
special needs of one State in comparison to others.

option4 CostPer Recipient Cap. This option imposes a cap on the Federal
reimbursement of the cost per recipient. States would be reimbursed for their full
recipient cost up to a set, predetermined percentage above the national median cost per
recipient. Under this option, there would be reduced disparity between the lowest and
highest cost States. It would allow for some differences in costs among the States, but
not for excessive differences. Savings would be generated by reducing the amount of
Federal administrative funds going to the highest cost States.

@tion 5: Hat Percentage. States would be reimbursed for their administrative costs on
the basis of their ratios of administrative cost to total program cost. This option reduces
the administrative burden but may not reduce the disparity among States. Given the
recent high rate of growth in program costs, the Federal Government would actually
spend more on administrative costs under this option than it spends currently.


CONCLUSION

The issue of reforming the administrative cost allocation system is very relevant today
given the considerable interest in “reinventing” Federal Government operations. If action
is not taken, we will continue to have a system that lacks sufficient accountability and
predictability, and relies on enhancing our monitoring capabilities.

The alternative funding approaches that we have outlined are meant to serve as
examples of what can be done. Furthermore, some combination of options might have a
number of advantages. For example, the block grant alternative could be combined with
the standard cost per recipient approach.

This report focuses on only three of the many programs for which the Federal
Government reimburses States for administrative costs. We focus on AFDC, Medicaid,
and Food Stamp administrative costs because they constitute the bulk of administrative
costs for Federal public welfare programs. However, we believe that the ultimate
objective should be to reexamine the administrative cost allocation systems of all Federal
programs.

                                              ...
                                              111
AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Management
and Budget, the Assistant Secretary for Planning and Evaluation, and the Assistant
Secretary for Children and Families. They state that we have not necessarily
demonstrated a serious problem in this area, expressed concerns about the way we
estimated future costs and possible savings, and pointed out that there may be valid
reasons for some disparities in costs among the States. The Administration for Children
and Families also requested a fuller discussion of the pros and cons of the various
funding alternatives. See full text of comments at Appendix B, The Health Care
Financing Administration provided informal comments on earlier drafts, but did not
provide comments on the latest one.

We recognize the legitimate concerns that have been raised and have considered them
carefully. We have revised the report in several places, primarily to focus more
succinctly on the need to change the current system and to update our savings
projections based on the latest available data. We also are including more detailed
responses in Appendix B to the issues raised.

At this point we believe that we have an honest disagreement about the extent of this
problem and its appropriate solution. Perhaps this disagreement stems from differences
in overall focus.

The agency comments focus on whether total costs within the current system are out of
control. There is some evidence offered, such as recent declines in cost per recipient
data and a Ievelling off of the rate of increase in Federal costs, that there is no real
problem here. We have reservations about the significance of these indicators and we
address them within the report itself. More importantly though, we think that these
indicators do not address the most important issue.

We think that the real issue is the current cost reimbursement system itself. The system
puts us at risk because we have difficulty knowing what we are paying for, whether it is
cost effective, and what we will have to pay out in the future. It provides little incentive
to economize,    and is itself an inefficient   system.

Agency comments also caution that our proposals could harm some States by not taking
into account their peculiar needs. We see similar problems of inequity with the current
system.

Thus, we continue to believe that the current cost reimbursement system for welfare
administrative costs needs to be replaced for the following reasons.

       o	       Under the current system we are not sure of what we are paying for and
                whether expenditures are cost-effective. It would require a considerable
                investment in expanded auditing and monitoring to find out. These costs
                would be prohibitive especially in an environment of declining resources.


                                                     iv


                                 —
              Our Office of Audit Services has reported that the current cost allocation
              system results in mountainous papexwork, labyrinthine accounting and
              detailed auditing and negotiation processes.

       o	     We can not predict with any degree of certainty under the current system
              what the States are going to charge us in the future. This issue becomes
              very important in thinking about how much the Federal Government wants
              to pay for administrative costs under welfare reform.

       o	     There is significant cost disparity among the States, without any clear
              relation to outcomes. While there are reasons offered for some disparity,
              there is no solid evaluated data that rules out efficiency as a factor in cost
              disparity. We also could find no significant correlation between
              administrative costs and numbers of recipients on an individual State-by-
              State basis.

For these reasons, we believe that the current cost allocation system should be replaced
by a system that provides adequate funding for States, incentives for efficient operations,
decreased Federal monitoring and oversight, and predictable Federal expenditures. We
think that the options presented in this report are a good place to start in developing a
new welfare administrative cost system.

We want to caution the reader that the dollar estimates for the various options are
illustrative only. In further developing a new administrative cost system, it will be
necessary to prepare detailed estimates based on clearly defined assumptions, using the
most recent information available.




                                               v
                      TABLE                    OF CONTENTS
                                                                                                                  PAGE	




ExEmmvE        suMMARY	

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1	

PROBLEMS WITH THE CURRENT	
  COST REIMBURSEMENT SYSTEM...                                  . . . . . . . . . . . . . . . . . . . . . . . . . . ...5	

ALTERNATIVE FUNDING OPTIONS                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...18	

APPENDICES	

k   Administrative     Costs and Recipients, 1989-1993 . . . . . . . . . . . . . . . . . . . . . . A-1


BAgency     Comments andOIG                 Response        . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C   Endnotes   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

                         INTRODUCTION

PUIU?OSE

To examine alternative funding arrangements for administrative costs in the Aid to
Families with Dependent Children (AFDC), Medicaid and Food Stamp programs.


BACKGROUND

The AFDC program (Title IV-A) provides cash assistance to low-income families with

children in which one parent is absent or incapacitated, or to families in which the

primag earner is unemployed. The Medicaid program provides medical assistance to

low-income people who are recipients of Supplemental Security Income, current or

recent recipients of AFDC, and certain other low-income people. These programs are

administered by the Administration for Children and Families (ACF) and the Health

Care Financing Administration within the Department of Health and Human Services

(HI-E). The Food Stamp program, administered by the Food and Nutrition Service

(FNS) in the Department of Agriculture, provides redeemable coupons for food to

low-income households to enable them to buy a nutritionally adequate low-cost diet.


In 1993, States charged the Federal Government approximately $5.7 billion to

administer the AFDC, Medicaid and Food Stamp programs. The Federal

Government pays half of the administrative cost for most types of administrative

activities in all three programs and State and local governments pay the remaining

share. In general, States have considerable latitude in defining their administrative

costs. Costs need only be considered “reasonable and necessary” as outlined in OMB

Circular A-87, “Cost Principles for State and Local Governments.”1


Administrative costs are the expenses States incur to administer their programs. They

are not easily defined since States claim and categorize their administrative costs

differently. In general, however, administrative costs include such things as computer

services, transportation and salaries that are billed directly to an agency or program

and allocated costs which are shared with other agencies or programs. The majority

of administrative funds pay for staff at the State and local levels to perform a wide

variety of tasks. These activities include: the cost of determining eligibility for all

applicants, setting the allotments for eligible households, making changes in a

recipient’s status over time and other administrative tasks. Higher matching rates

have been developed for some types of expenses as an incentive for local

administrators to engage in particular administrative activities, such as statewide

comprehensive systems development, training, and some anti-fraud activities.





                                          1

In 1986, our Office of Evaluation and Inspections published a report in response to
questions raised about rising administrative costs. That report, entitled: “Inspectionof

AFDC, Medicaid and Food Stamp Administrative Costs” (OAI-05-86-OOO08), examined
the wide cost variation among States and the overall increase in cost. It suggested an
alternative method for funding administrative costs that would reduce costs overall and
reduce the variation between States. This proposal, however, was not implemented.

Since 1986, other groups have made the following proposals on this issue:

In 1987, HI-IS authored a legislative proposal to reduce the matching rates for
administrative costs in the AFDC, Medicaid and Food Stamp programs. Under the
proposal, matching rates were reduced for costs in excess of 125 percent of the
median for the AFDC and Food Stamp programs and 135 percent of the median for
Medicaid. At that time, HHS also proposed eliminating enhanced matching rates. In
addition, the Assistant Secretary for Planning and Evaluation has examined this issue
extensively.

The Office of Management and Budget (OMB) proposed creating a fixed grant at the
current Federal spending levels. In addition, it is in the process of revising circular A-
87, “Cost Principles for State and Local Governments,” which establishes the standards
for determining administrative costs.

Congress has also shown some interest in this issue. The H.R. 5552, introduced in
July 1992 proposed a combined grant to States for administrative costs of AFDC,
Medicaid and the Food Stamp programs.

The Congressional Budget Oflice has also proposed combining funding to States for
the cost of administering AFDC, Medicaid and the Food Stamp program into a single
indexed grant.2

In 1988, the National Association of State Budget Officers and the National
Governor’s Association proposed their own reform measure. They proposed
development of a combined administrative rate for the AFDC, Medicaid and Food
Stamp programs. The rate would be based on the historic ratio of administrative
funds to total benefit payments for each State. The goal was to reduce the papenvork
burden and create cost savings for State and Federal Governments. They advanced
their idea as a demonstration program, but it was not implemented. States were
concerned that the proposal would make administrative costs vulnerable to Federal
cost cutting measures.

We have also been very involved in this area through our Office of Audit SeMces.
We have worked with OMB to revise Circular A-87 and have produced numerous
reports on this issue. Most recently we issued a report, “Reforming the System for
Determination of State and Local Government Administrative/Indirect Costs”



                                           2

(A-12-92-OO014). We received about 115 comments from 22 Office of Inspectors
General and Financial Management Offices representing 13 Federal agencies, and
incorporated them into the report. The report describes the current system as,
“unnecessarily burdensome to Federal, State and local govemments.”3 Furthermore,
it suggests that, “a new system can be devised to eliminate or at least minimize, the
mountainous papenvork, multiple cognizance arrangements, labyrinthine accounting
and detailed auditing and negotiation processes. Such a system would benefit both the
States and the Federal Government by reducing administrative burdens and costs.”4
The report offers a range of options, from expanding monitoring efforts and reforming
cost allocation guidelines to more far reaching suggestions to “dispense with the
current arcane system and establish an equitable level of reimbursement over time.”5
One specific proposal was to award a single administrative cost grant for public
assistance programs.

In addition to these past initiatives, the current Administration proposed that the
Federal reimbursement rate be set at a uniform 50 percent for all administrative costs.
That is, they proposed reducing the special matching rates to 50 percent. The first
option in this report supported this proposal. Since issuing the working draft of this
report, this option was enacted into law for the AFDC and Food Stamp program.
Special rates remain, however, in the Medicaid program.


SCOPE

This inspection focuses on possible solutions to concerns specified in our Office of
Audit Service’s report. We present five different options for funding public assistance
administrative costs through a single grant. These represent only some of the many
methods that might be used to fund administrative costs. Many have been proposed
previously in various forms. We present these options again to help focus the
discussion on the issue of administrative costs and to further clarify the costs and
benefits to the States as well as to the Federal Government. We believe that there is
widespread interest in improving the current system, but there is little consensus on
how this should be done.

This report focuses on only three of the many programs for which the Federal
Government reimburses States for administrative costs. We focus on the AFDC, Food
Stamp and Medicaid programs because they generate most of the administrative costs
for federally supported public welfare programs. However, we recognize the risk that
States may shift administrative costs to other programs (although there would be some
practical limits as to how much cost shifting could occur). Therefore, we believe that
the overall objective should be to re-examine the administrative cost of all Federal
programs. The ideas presented here for the AFDC, Medicaid, and Food Stamp
programs might well be adapted to other programs and could be used in conjunction
with an overall reform of the cost allocation system suggested in the OffIce of Audit
Services report.



                                          3

We do not include funding for Medicaid Fraud Control Units in our analysis, since, by
law, they must be administered by State agencies independent of the ones that
administer the Medicaid program.


METHODOLOGY

Pre-Ins~ection Activities


During pre-inspection, we reviewed the following materials: OMBCircular No. A-87,

Office of Inspector General (OIG) reports on administrative costs, and other materials

protided bythe&sistant    SecretaV for Planning and Evaluation (SPE).     In addition,

we spoke with people from the Division of Cost Allocation (regional and

headquarters), ASPE, and our Office of Audit Semites. We held an entrance

conference on September 9, 1992 with representatives from the Administration for

Children and Families, ASPE, the Department of Agriculture and other OIG staff.


Insr)ection Activities


We collected the following data on a State-by-State basis for Fiscal Year (FY) 1982 to

N 1993. Total program and administrative costs for the AFDC program were not

available for FYs 1982-1986.


       Total Program (AFDC, Food Stamp, Medicaid) Budgets

       Total Administrative Costs

       Number of Recipients


For the purposes of this study we used State generated data provided to us by ACF,
HCFA and FNS. We did not verify the data. We are aware that the States and the
agencies define administrative costs and collect their data differently, thus, the data
may not be perfectly comparable among States and between programs. Total
recipient data, for example, are reported as an annual average number of persons
participating in the program for the AFDC and Food Stamp programs. Alternatively,
Medi&iid collects an annual total recipient count. While the data may not be exactly
comparable betsveen programs, it is the best available. We feel confident that it is
appropriate for this analysis.

We held an exit conference on March 30, 1993 with representatives from each of the
agencies, ASP~ and the Office of Inspector General in the Department of
Agriculture.

We received numerous HHS staff comments on our working draft and made many
changes based on the advice we received.

This inspection was, conducted in accordance with the Quality Standardr for Inspections
issued by the President’s Council on Integrity and Efficiency.


                                          4
PROBLEMS WITH THE CURRENT COST REIMBURSEMENT’ SYSTEM


 One of the primary problems with the current system is that the Federal Government
 cannot readily determine what is included in the administrative costs claimed by States.
 Furthermore, the cost to accurately determine what the funds are paying for is
 prohibitive. This would require increased Federal spending for maintaining the necessary
 monitoring systems and expanding auditing activities.

 Meanwhile, administrative costs vary considerably among States, even among those with
 similar characteristics. On the face of it, it would seem that some States are being very
 efficient and others are less efficient. Yet, no one knows for sure what the real cost
 should be.

 In short, the current method for reimbursing States for welfare administrative costs is
 unwieldy and unpredictable, both for the Federal Government and for the States. We
 believe that the current system should be replaced with one that would provide adequate
 fimding to States, along with incentives for efficient operations and decreased oversight
 and monitoring on the part of the Federal Government.

 We present five of many possible options for funding administrative costs. Under most
 of these options the States could realize greater flexibility in using their funds and
 perhaps increase efficiency in their operations. Under some options States would receive
 more equitable funding than under the current system. In addition, Federal cost
 allocation and monitoring processes could be simplified and significant savings achieved.

 The remainder of this report is divided into three sections. The first section examines
 several of the main issues inherent in the current administrative cost system. The second
 section presents five options for funding administrative costs for these three programs.
 The options are evaluated according to several criteria. The last section provides some
 final observations about the five options.

 Unexdained Dismuitv Among States

 Significant differences exist among States in their unit cost (i.e., cost per recipient) for
 administering the three programs. Table 1 lists the States alphabetically and shows the
 FYs 1989-1993 average combined cost per recipient along with each State’s average
 ranking for the same period. On average, New Jersey and Oregon have been among the
 highest cost States during our 5 year analysis period, with an average cost per person of
 $251 and $232, respectively. This is a significant contrast to States -like Texas and Illinois
 which operated at $107 and $124 per person, respectively.

 A multitude of anecdotal explanations have been offered as to why such disparities exist:
 cost-of-living differences, complexity of caseloads, stringency of eligibility requirements,
 schedule of automated systems development, differences in the delivery of program
 services, and cost allocation methodologies. In addition, some States may be operating


                                               5
                                               >>>TABLE      1<<<




AVERAGE STATE ADMINISTRATIVE	            COST PER RECIPIENT               (CPR)   AND AVERAGE RANKING
                                         FY 1989 - FY 1993

                                               ---------            -------
                                         Combined                   Average
                                         Average      CPR           Rank
                                            ---------               -------
          A labame
                              $100.14                  48
          Alaska
                                  323.39                   1
          Arizona
                                 213.36                   9
          Arkansas
                                111.66                 43
          Cal ifornia
                              163.84                25
          Colorado
                                142.69                 32
          Connect i cut
                           194.93                 15
          Delaware
                                222.04                   7
          Dist.     of Col.
                       285.70                   2
          Florida
                                 124.30                 38
          Georgia
                                 144.97                 31
          Guam
                                    237,54                   5
          Hawaii
                                  169.79                 22
          Idaho
                                   209.23                 10
          Illinois
                                123.54                 39
          Indiana
                                 111.22                 44
          Iowa
                                    121.81                 40
          Kansaa                                   135.79                 34
          Kentucky                                 100.57                 47
          Louisiana                                  74.45                51
         Maine                                     135.19                 35
         Maryland                                  186.18                 19
         Massachusetts                             166.32                 24
         Michigan                                  151.68                 29
         Minnesota                                215.23                   8
         Mississippi                                 65.58                52
         Missouri                                    97.15               49
         Mont ana                                 190.04                  17
         Nebraska                                  152.97                 28
         Nevada                                   188.56                  18
         New Hampshire                            206.47                  11
         New Jersey                               250.79                   3
         New Mexico                               113.70                 42
         New York                                 247.55                   4
         North      Carol ina                     130.10                 37
         North Dakota                             180.33                 21
         Ohio                                     104.77                 46
         Oklahcma                                 198.24                  14
         Oregon                                   231.82                   6
         Pennsylvania                             154.65                 27
         Puerto      Rico                            19.65               54
         Rhode Island                             114.10                 47
         South Carol ina                          141.16                 33
         South Dakota                             131.30                 36
         Tennessee                                  91.25                50
         Texas                                    106.87                 45
         Utah                                     198.67                 13
         Vermont                                 205.61                  12
         Virgin      Islands                      168.85                 23
         Virginia                                 160.06                 26
         Washington                               181.87                 20
         West Virginia                              62.26                53
         Ui scmai n                               148.96                 30
         Uyoming                                  193.14                 16

         AVERAGE                                $159.30

         NOTE:    Federal       Share   Only
much more efficiently than others. Thus, some variation between States should be
expected due to the many differences between States. However, there is no consensus
on how much variation should exist or the extent to which each of these factors
influences variation.

Burden of Accmntabilitv and oversitit

In order to accept the contention that increased program responsibilities are leading to
increased administrative costs, there must be data that will assure that the cost increases
are justified. But verification through audits and other monitoring activities is extremely
costly. In fact, our Office of Audit Services points out that efforts to veri~ State
administrative costs may not be feasible. They emphasize that, “The auditing of costs ...
require an enormous amount of resources, is very difficult, time consuming and labor
intensive with little relative payoff. Even after unallowable costs are identified a
reasonable estimate or extraordinary costing effort has to be made as to the dollar
impact on all Federal programs at the State.”G

In addition to veriijhg State plans, the current lack of accountability is itself a problem.
Because of limited staff resources and significant time constraints, HHS is not able to
make detailed reviews of all the plans. Instead, HHS must rely on State audits. There is
concern about whether these cost allocation plans are adequately screened for
unallowable costs being improperly charged to Federal programs.

Questions about Costs and Workload

Total administrative costs have risen significantly over the past 5 years, however, each of
the three programs has grown at different rates. Between FY 1989-1993, total
administrative costs increased 37 percent overall. This is roughly 18 percent above the
growth due to inflation. During this period, administrative costs in the Medicaid program
increased by 39 percent after inflation and the Food Stamp program grew by 13 percent.
The AFDC administrative costs actually decreased by 4 percent after taking inflation into
account (See Appendix ~ Table 1).

The number of recipients increased much more rapidly than usual during this time
period. In the AFDC program, the number of recipients increased by 29 percent, the
Medicaid programs by 42 percent and the Food Stamp program by 44 percent (See
Appendix ~ Table 2).

One obvious conclusion from this data might be that the growth in the number of
recipients increased administrative activities in States, thus resuhing in increased
administrative costs. In fact, the cost of administering these programs has actually
decreased as measured by the unit cost (cost per recipient). For example in FY 1989,
the AFDC cost per recipient was $145 per recipient; in FY 1993 that cost had decreased
to $107 per recipient. The Medicaid and Food Stamp programs also experienced similar
decreases (See Appendix ~ Table 3).



                                             6

A more detailed analysis of the data show this to be an incomplete interpretation.    It is
important to note that the data yield different results depending on what years are
chosen for analysis. Had we begun our analysis in FY 1987 instead of FY 1989, we
would see that costs per recipient increased rapidly and peaked in 1989 then began to
decrease to more typically historic levels in the Medicaid and Food Stamp programs (cost
data was not available for the AFDC program, 1982-1986). In addition, there have been
dramatic fluctuations in the rate of growth of recipients within the last 5 years. Growth
rates range from 14.4 percent to 5.9 percent.

Furthermore, a State-by-State analysis of the linkage between costs and workload on an
annual basis demonstrates a disconnect between the amount of money being spent and
the number of recipients. During some years, both the number of recipients and
administrative costs increase together, however, they increase at varying rates. In other
years administrative costs increase and recipients decrease, and there are other instances
where recipients increase and administrative costs go down.

The following two States are typical examples of the disconnect between administrative
cost and recipient increases. In New Jersey for example, annual changes in
administrative costs between 1989 and 1993 were: 13.5 percent, -5.6 percent, 19.8
percent, 7.8 percent and -3.0 percent respectively. In comparison, the annual changes in
the estimated unduplicated count of recipients were: -1.6 percent, 6.2 percent, 10.6
percent 11.0 percent and 8.4 percent, respectively. Similarly, in Utah, the increase in
administrative costs were: 9.8 percent, -5.7 percent, 19.5 percent, 21.2 percent and 2.3
percent.    Correspondingly, increases in the number of recipients were: 5.9 percent, 8.6
percent, 13.7 percent, 8.6 percent, and 6.7 percent.

These are not isolated examples. We calculated correlation coefficients to determine
whether the annual changes in administrative costs are related to the changes in the
number of recipients for each State and ternto~. The correlation coefficients fail to
show any significant correlation between these two factors (see Appendix ~ Table 4).
These results cause us to further question the nature and magnitude of the relationship
between administrative costs and recipients.

Thus, there must be factors other than number of recipients that are influencing the
increased administrative costs. We believe that this disconnect is another indication of
the unpredictable and somewhat unknown nature of the current administrative cost
system.

Proiected Administrative Costs FY 1995- FY 1999

It is extremely difficult to estimate future costs. So much depends on underlying
assumptions and on future events which are inherently unpredictable.

As noted in the previous section, we were unable to correlate programmatic factors such
as workload with administrative costs. We believe that historical cost patterns are the
best predictors of future spending. Therefore, to estimate the level of administrative


                                             7
costs under the current system to FY 1999, we took each State’s administrative cost in
FY 1993 as the baseline amount. We then increased that baseline amount by the State’s
average annual rate of growth in administrative costs from FYs 1989-1993 (see Table 2).

For example, Alabama’s administrative costs grew an average of 7.4 percent annually
from FY 1989-FY 1993. Therefore, to project Alabama’s administrative costs, we
increased the FY 1993 amount by 7.4 percent each year until FY 1999.

On average, administrative costs increased by about 8.7 percent for all States annually.
We project that the total Federal share of administrative costs will be $9.5 billion in FY
1999 (this figure is adjusted for savings achieved by the reduction in special match rates
for the AFDC and Food Stamp programs) if the current system remains unchanged.
This would be a 64.9 percent increase over the FY 1993 amount of $5.7 billion.

Other factors, such as workload and inflation, will affect actual State expenditures in ways
that we cannot easily foretell. As a result, actual expenditures under current law and
savings under the various options we describe could be more or less than we project.

We continue to be concerned that an open-ended cost reimbursement system, especially
one with poorly defined cost elements, does not provide sufilcient incentives for an
efficient and effective administrative cost system for public assistance programs. In
addition, we believe that with renewed focus on major changes in the current welfare
system, there will be increased pressure on administrative costs to expand.




                                             8

                                                                 >>>     TABLE   2 <<<


                                                       ADMINISTRATIVE         COST PROJECT ION
                                                                ($ in      thousands)
                       FY89-93
                       Avg     Inc              1995              1996               1997              1998             1999
                        ------                -----             -----              -----             -----             -----
Alabama                       7.4%         $71,078           $76,329            $81,968           $88,024           $.94,527
Alaska                       14.1%            31,456           35,884             40,934            46,695            53,267
Arizona                      16.2%          125,179          145,485            169,087           196,517           228,396
Arkansas                      8.3%            48,968           53,011             57,388            62,126            67,256
California                   11.1%      1,135,574        1,261,276          1,400,891         1,555,961         1,728,197
Colorado                      5.7%            49,817           52,660             55,666            58,843            62,202
Connect i cut                 3.6%           67,241           69,637              72,118            74,688            77,350
Delaware                     14.5%           20,929           23,972              27,458           31,451            36,024
Dist.      of Col.                           41,035           43,354             45,805            48,394             51,129
Florida                       1::3         250,760          276,249            304,330           335,265           369,345
Georgia                        8.0%        161,838           174,742            188,676          203,720           219,963
Hauai i                        4.4%          24,798           25,895             27,040            28,236            29,484
Idaho                        12.2%           26,4Zf           29,696             33,312            37,368            41,918
 Illinois                      7.1%        258,668          276,958            296,540           317,508           339,957
Indiana                        9.2%          84,405           92,184            100,680           109,959          120,094
I oua                          5.3%          43,992           46,329             48,791            51,383            54,113
Kansas                         7.6%          44,646           48,050             51,713            55,656            59,900
Kent ucky                      9.1%          96,062         104,849             114,441          124,911           136,338
Louisiana                      9.1%          95,074         103,757            113,232           123,573           134,858
Maine                          7.2%          29,204           31,303             33,554            35,966            38,551
Maryland                     12.0%         141,346          158,309            177,308           198,586           222,418
Massachusetts                -0.4%         122,600          122,072            121,546           121,023           120,501
Michigan                       6.6%        287,273          306,271            326,525           348,119           371,141
Minnesota                    13.1%         151,146          170,874            193,177           218,391           246,895
Mississippi                    5.2%          47,117           49,559             52,128            54,829            57,671
Missouri                       8.1%          87,991           95,119           102,825           111,155           120,160
Mont ana                       8.8%          20,695           22,525             24,517            26,684            29,044
Nebraska                                     30,617           32,976             35,516            38,253            41,200
Nevada                     1;:2              25,755           29,660             34,158            39,337            45,302
Ne~ Hanpsh i re              8.3%            18,342           19,863             21,510            23,294            25,226
Ne~ Jersey                   6.5%         228,234           243,065            258,859           275,681           293,595
Neti Mexico                  5.9%            34,367           36,377             38,506            40,759            43,743
N-      York                 4.3%         802,607           836,891            872,639           909,915           948,782
North      Carol ina         9.1%          135,230          147,498            160,878           175,473           191,391
North Dakota                 4.4%            13,468           14,065             14,688            15,339            16,019
Ohio                       11.2%          256,455           285,094            316,931           352,323           391,668
Oklahoma                     9.3%          102 #953         112,551            123,044           134,515           147,056
Oregon                       8.5%            99,285         107,752            116,941           126,913           137,736
Pennsy[ vani a               7.2%         292,963          313,914             336,363           360,417          386,192
Rhode Island                 3.9%            19,920           20,703             21,517            22,363            23,242
South Carol ina              5.4%            75,643           79,717             84,010            88,534            93,302
South Dakota                 8.5%            11,962           12,979             14,083            15,281            16,581
Tennessee                  10.1%           111,870          123,207            135,694           149,447           164,593
Texas                      11.8%          401,196           448,519            501,424           560,569          626,691
Utah                         9.4%            42,989           47,050             51,494            56,358            61,682
Vermont                    11.0%             22,496           24,973             27,723            30,776            34,165
Virginia                     8.6%          126,428          137,318            149,147           161,994           175,948
Uash i ngton               16.1%           192,836          223,921            260,017           301,932          350,603
Uest Virginia                9.5%            33,917           378133             40,652            44,506            48,725
Ui sconsi n                  8.3%            99,213         107,482            116,441           126,147           136,661
Uyomi ng                   13.3%             12,595           14,268             16,163            18,309            20,741
Guam                       20. 9%              4,050            4,898              5,924             7,165             8,665
Puerto       Rico          -6.6??	           11,469           10,938             10,431              9,948             9,487
Virgin       Islands         9.1%              4,309            4,702              5,132             5,600             6,112

TOTAL                         8.7%    $6,776,532       $7,373,865         $8,031,535        $8,756,178        $9,555,207
Sp Hatch     Savings                     (S80,000)         ( $90. 000)        ($90,000)         ($90.000)        ($90 , 000)
ADJ TOTAL                             $6,696;    532   $7,283;    865     $7,941 ;535       $8,666;     178   $9;465;207
                        ALTERNATIVE FUNDING OPTIONS

This report is an initial step in assessing the viability of various funding options. We
recognize that there are numerous ways of constructing options. Our intention is to
present the general concepts behind these options in order to assess the relative merits of
each. We fully expect that if one or more of these options is implemented, further
refinement and adjustment would be necessary. Regardless of which option is selected
for fin-ther consideration, it should be evaluated against certain criteria. These criteria
are:

1)	   A&quacy: Funds should be adequate for the effective and efficient administration
      of these programs.

2)	   lZbibi@ und Adminhtmtive Relief: The States and the Federal Government
      should have greater flexibility in using their administrative funds, and reduce the
      administrative burden by cutting back on the need for data collection and
      intensive monitoring.

3)     C-:    The rate of growth of administrative costs should be controlled.

4)    q:          Fundingdisparity among the States should be reduced.

5)	   fiedicilzbildy: There should be greater predictability in the system as a result of
      prospective planning and budgeting for administrative costs.

The five options are:

Reduce Medicaid Special Match Rates to 50 Percent. This option would reduce special
match rates to 50 percent for the Medicaid program, similar to the reduction that has
occurred for the AFDC and Food Stamp programs.

Block Grant. This option would combine the administrative costs of all three programs
at a base year level, then provide inflationary increases each succeeding year.

Standard Cost Per Recipient. This option would fund each State for administrative costs
based on a standard per recipient allocation amount.

Cost Per RqSpient Cap. This option imposes a cap on the Federal reimbursement of
the cost per recipient. States would be reimbursed for their full recipient cost up to a
se~ predetermined percentage above the national median cost per recipient.

Flat Percentage. States would be reimbursed for their administrative costs on the basis
of their ratio of administrative cost to total program cost.




                                             9

Our purpose in presenting these options is to illustrate the various methods that could be

used to distribute Federal funds to the States and to estimate the potential financial

impact of each approach. We caution that the level of estimated savings are a direct

result of the assumptions made under each option. To underscore this point we

demonstrate the sensitivity of the options by testing how various assumptions under

Option 3 would affect the results (see Option 3). Policy makers wishing to either

increase or decrease grants to States for administrative costs could use these

methodologies. The important goal in our mind is to control the amount spent, to relate

it to programmatic goals, and to eliminate administrative costs and burdens in dispensing

the Federal funds.


In the following analysis we describe each of the five options, provide State level

examples of the financial impact, and assess the strengths and weaknesses of each option

according to the five criteria listed above:


OPTION 1: REDUCE        MEDICAID SPECIAL MATCH TO 50 PERCENT


Since the development of this option, the special match rates for the AFDC and Food

Stamp programs has been reduced to 50 percent. This affects all five options equally by

reducing the amount of savings still achievable by about $80 million in FY 1995 and $90

million in each subsequent year. 7 We adjusted for these savings in all our option

calculations.


Special matching rates have been provided to States to encourage specific administrative

activities. In the AFDC program, for example, the Family Assistance Management

Information System was reimbursed at 90 percent, the Systematic Alien Verification for

Entitlement at 100 percent, and control of fraud and abuse at 75 percent. The Medicaid

program has similar types of special matching provisions. (NOTE: Funding for Medicaid

Fraud Control Units matched at 90 percent start-up and 75 percent operating costs is not

included in our analysis since by law this program is operated independently of the State

agency that administers the Medicaid program.)


one alternative for funding administrative costs is to reduce the special matching rates

that exist for some activities in the Medicaid program to 50 percent. For example, the

development and operation of management information systems is currently funded

anywhere from 75 to 90 percent for Medicaid. Option 1 considers reducing these special

matching rates to a uniform 50 percent (see Table 3).


To calculate administrative costs under this option, we first determined the proportion of

administrative costs eligible for the special match rates for each State. Then we reduced

the Federal reimbursement rate to 50 percent.





                                            10

Impact

Adequacy      There would be impact on a portion of Medicaid administrative costs. Costs
reimbursed at the special matching rates accounted for 27.9 percent of all Medicaid
administrative funds in FY 1993; 72.1 percent would remain unaffected. Of the three
programs, Medicaid administrative costs would be affected more than the other two
programs since it has the largest proportion of special matching rates.

The impact on special matching rate activities is unclear. Special match rates were
provided to encourage States to initiate cost saving activities. Since many of these cost
saving activities (e.g. development of MIS systems) are largely in place, these special
rates may no longer be necessaxy. However, eliminating the special match rates may
reduce State investment in cost saving activities.

Flexibility and Administrative Reliefi This option would have virtually no impact on
Federal and State administrative  burdens. The cost allocation system would remain the
same except that all administrative costs would be reimbursed at 50 percent. States
would gain no additional flexibility since reimbursement and reporting requirements
would not change.

Costs: Based on historical data through FY 1993, we project this option would reduce
the Federal share of administrative costs by approximately $2.3 billion from FYs 1995-
1999.. The savings could increase or decrease depending on the total amount which
States choose to spend in categories affected by the higher rates.

Disparity The funding gap among States would not be affected for the majority of
administrative costs. States funding levels would decrease proportionate to the amount
spent on activities matched at the higher rates.

Predictability This option would not introduce any additional predictability into the cost
allocation system since it would remain essentially unchanged.




                                             11

                                     >>>   Table 3eec

                     REDUCE     MEDICAID SPECIAL        MATCH    RATES
                                      ($ in millions)


                        FY 1995      FY 1996        FY 1997   FY 1998    FY 1999
 Total Medicaid
 Administrative          $3,502       $4,022        $4,632      $5,350    $6,200
 Costs (Projected)
 Amount Provided
 at Special Match        $977         $1,122        $1,292      $1,493    $1,730
 Rates
 Special Match
 Rates Reduced to        $644          $739          $851       $983      $1,139
 50 Percent


 Savings                 $333          $383          $441       $510       $591




OPTION 2     BLOCK GRANT

Under Option 2, the Federal Government would provide a block grant to each State to
cover administrative expenses for all three programs. For illustrative purposes, we used
an approach that combines the administrative costs for the three programs at their FY
1993 levels, then provides an allowance for inflation in subsequent years (see Table 4).

To calculate the Federal share of administrative expenditures under a block grant
approach, we combined administrative costs at the FY 1993 levels. Then we increased
the block grant for inflation. We adjusted for savings already realized by the AFDC and
Food Stamp programs by the reduction in special matching rates by subtracting the
estimated savings amount from total administrative costs.

lmlXK.1

Adequacy The block grant option does not reduce the baseline amount that States are
currently receiving. It holds the rate of increase to the rate of inflation. Policy and
program officials should select the base year and growth rate that will ensure adequate
funding for States. This approach might need some mechanism to occasionally adjust
funding for overall program changes. For example, if States generally experience a
significant increase in recipients, the block grant might be increased to cover larger
administrative costs. Even with such an overall adjustment, the block grant approach
does not automatically adjust funding levels to States based on State specific cost


                                               12
                                                                                     >>>      TABLE 4 <<<


                                                                                            BLOCK GRANT
                                                                                      ($    in thousands)
                       ----------------------------------------------------------------
                                    FY95       Ackn              FY96 A&                   FY97 Adm                 FY98     A&       FY99   Acin
                       ----.-----            ---.------           --------------------------------------------
A 1abams                              %5,325                      %7,480                      S69, 707                 $72,077          $74,528
Alaska                                  25,595                      26,389                       27,260                  28,159           29,117
Arizona                                 98,125                    101,167                      104,506                 107,954          111,625
Arkansas                                44,241                      45,613                       47,118                  48,673           50,328
California                           974,669                  1,004,884                    1,038,045               1,072,300        1,108,759
Colorado                                47,205                     48,669                        50,275                  51,934           53 #700
Connect i cut                          66,382                      68.440                        70,698                  73,031           75,515
Dela~are                                16,891                      17;414                       17,989                  18,583           19,214
Dist.     of Col.                      38,924                      40,131                        41,455                  42,823          44,279
Florida                              218,776                     225; 559                     233,002                 240,691          248,875
Georgia                               146,986                     151,543                      156,544                 161,710          167,208
Hauai i                                24.081                      24.827                       25,647                   26,493           27,394
Idaho                                  22; 276                     22; 967                      23,725                   24,508          25,341
Illinois                             2388909                     246.315                      254,444                 262,840          271,777
Indiana                                74,924                      77; 247                      79,796                  82,429           85,232
Iowa                                   42,000                      43,301                       44, i30                 46,207           47,778
Kansas                                 40.812                      42.077                       43 #466                 44,900           46,427
Kentucky                               85; 378                     88;025                       90,930                  93,930           97,124
Louisiana                              84,525                      87,146                       90,021                  92,992           96,154
Maine                                  26,914                      27,748                       28,664                  29,610           30,616
Maryland                             119,309                     123,007                      127,066                 131,260          135,722
Massachusetts                        130.940                     134,999                      139,454                 144,056          148,954
Michigan                             267;611                     275,907                      285,012                 294,417          304,427
Minnesota                            125.219                     129,100                      133,361                 137,761          142,445
Mississippi                            45; 094                     46,492                       48,026                  49,611           51,298
Missouri                               79,728                      82,199                       84,912                  87,714           90,696
Montana
                               18,497                      19.071                       19,700                  20,350           21,042
Nebraska
                              27,946                      28;813                       29,764                  30,746           31,791
Nevada
                                20,562                      21,199                       21,899                  22,622           23,391
Ne~ Haqxh i re
                        16,561                      17; 074                      17,638                  18,220           18,839
Neu Jersey
                          213,071                     219,677                      226,926                 234,415          242,385
New Mexico
                            32,477                      33,484                       34,589                  35,730           36,945
Neu York
                            781,631                     805,861                      832,455                 859,926          889,163
North     Carol ina
                 120,360                     124,091                      128,186                 132,416          136,918
North Dakota
                          13,076                      13,481                       13,926                  14,386           14,875
Ohio
                                219,729                     226,541                      234,017                 241,739          249,958
Oklahc+ns
                             91.211                      94.039                       97,142                100,347          103,759
Oregon
                                89;255                      92; 022                      95,058                  98,195         101,534
Pennsylvania     a
                  270,177                     278,553                      287,745                 297,241         307,347
Rhode Island
                          19,527                      20,132                       20,797                  21,483           22,213
South CaroL i na
                      72,117                      74,352                       76,806                  79,340           82,038
South Dakota
                          10.758                      11.091                       11,457                  11,835           12,238
Tennessee
                             97;655                    100;682                      104,004                 107,437          111,089
Texas
                               339,890                     350,427                     361,991                 373,936          386,650
Utah
                                  38,001                      39,179                       40,472                  41,807           43,229
Vermont
                               19,328                      19,927                       20,585                  21,264           21,987
Virginia
                            113.476                     116,993                      120,854                 124,842          129,087
Uash i ngton
                        151;427                     156,122                      161,274                 166,596          172,260
Uest Virginia
                         29,963                      30.892                       31,911                  32,964           34,085
Uisconsin
                             89,507                      92;282                       95,327                  98,473         101,821
Uyomi ng
                              10,392                      10,715                       11,068                  11,433           11,822
Guam
                                    2; 932                      3,023                        3,123                   3,226            3,335
Puerto     Rico
                       13;352                      13,766                       14,220                  14,690           15,189
Virgin     Islands
                      3,830                       3,949                        4,079                   6,214            48357

TOTAL
                        $6,077,547                   $6,266,081                 S6,472,862                 $6,686,536       $6,913,878
Sp Match Saving
                  ($80, 000 )                 ($90,000)                  ($90,000)                  ($90 , 000)      ($90,000)
AD.I TOTAL
                   $.5,997,547                  %,176,081                  $6,382,862                 $6.596,536       %,823,878
problems. For example if one State experienced a significant cost increase for ADP

equipment its share of the block grant would not increase automatically.


F’lexiiility and Administrative Reliefi States’ administrative burden would be significantly

reduced. States would have less reporting requirements to the Federal Government since

they would have the responsibility for, and control the use of, funds for administrative

activities. This, in turn, would reduce the cost and administrative burden of oversight and

monitoring by the Federal Government.


CQStx Based on historical data through FY 1993 and using FY 1993 as the base year for

calculating inflationary adjustments, we project Federal savings of $8.1 billion by FY

1999. This alternative produces the greatest savings of all the options. Savings are

generated by reducing the rate of growth in administrative costs to the level of inflation.

This is significantly lower than the estimated 9 percent annual rate of increase under the

current system (see Table 2). As noted earlier, this estimate of savings is very sensitive

to assumptions regarding inflation and State fiscal policies, both of which are difficult to

predict. They are also sensitive to the discretionary features of the block grant

mechanism itself. For example, savings could be greatly decreased or increased by

choosing a higher or lower base amount for the start-up year. Or, some factor other

than inflation could be used to annually increase the appropriation.   In fact, those factors

could be used to increase the amount available to States for administrative costs. The

key here is that the block grant mechanism allows policy makers to decide how much

they want to spend for administration and to efficiently distribute the funds to the States.


~parity     This option does not address any funding disparities that may currently exist

among the States since it freezes their administrative funding at the FY 1993 level. Some

low cost States may be operating programs below desired staffing levels because of

current budget constraints, but plan to hire more staff to better administer their

programs. Alternatively, this approach does nothing to limit Federal reimbursement to

States that may be operating excessively costly programs, in essence, rewarding them by

locking in higher levels of funding.


Predictability A block grant option would greatly enhance predictability since the annual

increase would grow at the rate of inflation.


OPTION 3: SMNDARD           COST PER RECIPIENT

Option 3 funds each State’s administrative costs on the basis of a standardized cost per
recipient (CPR). Though there are numerous ways to calculate a standard cost per
recipien~ ours is based on the average cost per recipient for FY 1989-FY 1993 (see
Table 5).

Specifically, we calculated the overall State average of the cost per recipient for each
year from FYs 1989-1993. This average cost per recipient served as the standard cost
per recipient for the baseline year of FY 1993. It was increased by inflation in
subsequent years. It was also adjusted to compensate for differences in labor costs


                                             13
                                                                                                                                     >>>     TABLE 5 <<<

                                                                                                                        STANDARDIZED              COST PER RECIPIENT

                                                 1995                                                  1996                                                 1997                                                         1998                                                     1999
                      ----------------------------                           ----------------------------                             ,.-------------              -.-----------               ---------------------------                           .   ---------------------------
                            Ver 1                Ver       2      Ver 3            Ver 1                  Ver    2     Ver      3          Ver 1                Ver    2           Ver     3         Ver 1                 Ver    2     Ver      3           Ver 1                   Ver    2     Ver      3
                      ----------------------                      . .... .   ----------------------------                             ,----------------------..                          ---   ---------------------------                           .   ---------------------------

Standard   Cost
   Per Recipient       $168.35                 $168.35         $168.35        $173.73              S173.73           S173.73           S179.29            S179.29            S179.29           S185.03               S185.03          S185.03            S190.95              S190.95           $190.95

Recipients
 (in millions)                46.3                 42.7            39.5             50.3                  44.5           39.5                54.8               46.3                39.5              59.9                 48.3           39.5                 65.7                  50.5           39.5

Estimated   Savings         ($943       )         (s339)           S171       (S1,269)                  (S259)           S557          (S1 ,671)              (s166)                S996        (s2,166)                   (S56)       S1,496            (S2,779)                      S72       S2 ,063
   (S in millions)


NOTES:
Version   1 uses estimates   of recipients                      based on the increase  over the pest                                5 years
Version   2 uses estimates   of recipients                      based on the increase  over the &st                                 Il”years.
Version   3 holds the ntmber   of recipients                       constant at the FV 1993 level.
between states. We used the Bureau of Labor Statistic’s listing of State wage levels for
government employees to adjust the standard cost per recipient for these differences.

Our cost per recipient figure uses an estimated, unduplicated count of the number of
recipients for all three programs. Unfortunately, none of the three agencies currently
collects unduplicated recipient information. Therefore we estimated it using information
from the Sumev of Income and Program Participation, which is administered by the
Bureau of the Census.8 If adopted, this option would require that States report their
unduplicated count of recipients: As a result, current data systems may need to be
improved. However, other per recipient approaches may not require an unduplicated
count.

To illustrate the sensitivity of these calculations, we varied our method for projecting
future numbers of recipients. As shown on Table 5, we calculated three different
recipient projections; one was based on the historical increase over the past 5 years,
another was based on the historical increase from the past 11 years, and the third holds
recipients constant at the 1993 level. The cost per recipient remained constant in each
version of this option.

We adjusted for savings already realized by the AFDC and Food Stamp programs by the
reduction in special matching rates by subtracting the estimated savings amount from
total administrative costs.

lE!Pf@

Adequacy States that have a cost per recipient level higher than the standard amount
will experience a reduction in Federal funding compared to their current baseline
amount. This could be a real disadvantage if their current higher funding is the result of
unique cost problems not experienced by other States who spend less per recipient.
Though we used a historical baseline, policy makers could select a standard amount and
growth rates based on many different factors to ensure adequate funding for States. One
advantage is that policy makers can be very explicit about the types of activities they are
including in the rate and the level of funding that will be provided for these activities. In
addition, a standard rate may generate incentives for greater efilciency among the States.

I?lexiiility and Administrative Reliefi Like the block grant option, a standard cost per
recipient approach gives States the responsibility for, and control of, their administrative
funds. A standard cost per recipient approach would relieve much of the administrative
burden on States since they would no longer have to maintain their cost allocation
processes for these three programs. This approach has an advantage over the block
grant (Option 2) since it automatically adjusts according to the number of recipients.

Costx Based on the number of recipients, this options would either cost or save Federal
funds. The three versions of this option produced dramatically different results in terms
of estimated savings. Version 1 us& recipient estimates based on the recipient increase
over the past 5 years, it results in an increased cost to the Federal Government of $8.8


                                              14
billion between FY 1995 and FY 1999. Version 2 uses recipient estimates based on         the

recipient increase over the past 11 years, it results in an increased cost to the Federal
Government of $748 million between FY 1995 and FY 1999. Version 3 holds the
number of recipients constant at the FY 1993 level and results in a savings to the Federal
Government of $5.1 billion between FY 1995 and FY 1999. It is clear from these figures
that it is critical to consider the sensitivity of the data to the underlying assumptions when
assessing each of the options.

Disparity This option directly addresses the funding disparity among States because all
States receive the same amount of funding per recipient. For example, the actual cost
for New Jersey in FY 1993 was $227 per recipient, versus $99 for Florida. Under a
standard cost per recipient approach, New Jersey and Florida would receive the same,
standard per recipient amount with adjustments for differences in labor costs.

Predictability Like the block grant option, this approach would greatly enhance the
ability to plan and budget for administrative costs prospectively.

OPTION 4 CAP

Option 4 imposes a cap on the Federal reimbursement   of the cost per recipient. Each
year, States would be reimbursed up to a percentage above the median cost per recipient
for all States (see Tables 6 and 7).

Based on our analysis of administrative growth under the current system, we first
determined the amual cost per recipient for each State. Then we determined the
annual median cost per recipient to calculate the cap amount. Next, the cap was applied
to individual State costs per recipient. To illustrate the impact that different cap levels
might have on States, we considered two cap levels: 150 percent of the national median,
and 125 percent of the national median. Under this approach, States that have
administrative costs in excess of the cap would receive only the cap amount. States that
have a cost per recipient below the cap would receive their actual cost.

We adjusted for savings already realized by the AFDC and Food Stamp programs by the
reduction in special matching rates by subtracting the estimated savings amount from
total administrative costs.

Im12a!a

Adequaw      This funding approach would   Impact the highest cost States since their
administrative costs would not be fully covered. With a 150 percent cap, we estimate
that 7 States would be affected in FY 1999. With a 125 percent cap, 21 States would be
affected in FY 1999. The number of States affected by a cap vary in any given year.
Compared to the previous option, this one offers more of a compromise between the
need to reduce disparity of funding among the States while still allowing for legitimate
differences. It allows for some variation but not for extensive differences.



                                              15

                                                                                                                                                     >>>     TABLE 6 <<<


                                                                                                                                          15W COST PER RECIPIENT                                CAP
                                                                                                                                        (CPR in dollars,                     A&I in thousands)
                      -----------------------------                 .   ----------------------------------------------------------------------------------------------------------------------
                            1995            150%               1995            1996                150%                      1996                  1997                150%                     1W7            19%              150%               1998            1999           15UX              1999
                               CPR    CPR CAP                    Ackn            CPR CPR CAP                                   Adm                   CPR CPR CAP                                   Acin            CPR   CPR CAP                      Acin            CPR   CPR CAP                  Adm
                        ------         ------             ------          ------               ------                   .-----                ------               ------                   ------          ------         ------              ------          ------        ------             ------
Alabama                   95.94        $95.94           $71,078             96.30             $96.30                 $76,329                    96.66             $96.66                 $81,968              97.03       $97.03            $88,024              97.39       $.97.39          $94,527
A(aska                  323.01         218.25             21,254          326.85              216.04                   23,718                 330.74              219.98                   27,226          334.67         227.45              31,735          338.65         230.54             36,262
Arizona                 126.73         126.73           125,179           112.61               112.61                145,485                  100.05              100.05                 169,087              88.90          88.90           196,517             78.99         78.W           228,396
Arkansas                118.26         118.26            48,968           120.93               120.93                  53,011                 123.67              123.67                   57,388           126.48         126.48             62,126           129.34        129.34             67,256
California              181.67         181.67         ,735,574            187.30               187.30              ,261,276                   193.10              193.10             1,400,891             199.08         IW.08          1,555,961            205.25         205.25        1,728,197
Co 1orado               120.78         120.78            49,817           119.05               119.05                  52,660                 117.33              117.33                   55,666          115.64         115.64              58,843           113.98        113.98             62,202
Connect i cut           145.50         145.50            67,241           136.03               136.03                  69,637                 127.18              127.18                   72,118          118.90         118.90              74,688           111.16        111.16             77,350
Delaware                201.10         201.10            20,929           204.32              204.32                   23,972                 207.59              207.59                   27,458          210.91         210.91              31,451          214.29         214.29             36,024
Dist.     of Col.       251.57         218.25            35,600           250.56              216.04                   37,381                 249.55              219.98                   40,377          248.55         227.45              44,286          247.55         230.54             47,617
Florida                   85.41         85.41           250,760             79.35                79.35               276,249                    73.72                73.72               304,330              68.49          68.49          335,265              63.62         63.62          369,345
Georgia                 113.57         113.57           161,838           109.93               109.93                174,742                  106.41              106.41                 188,676           103.00         103.00            203,720              W.70          W.70           219,963
Haua i i                157.63         157.63            24,798           156.63              156.63                   25,895                 155.65              155.65                   27,040          154.66         154.66              28,236          153.69         153.69             29,484
Idaho                   206.19         206.19            26.473           210.21              210.21                   29,696                 214.30              214.30                   33,312          218.47         218.47              37,368          222.73         222.73             41,918
ILlinois                139.33         139.33           258; 668          144.00              144.00                 276,958                  148.84              148.84                 296,540           153.83         153.83            317,508           158.99         158.W            339,957
Indiana                 101.06         101.06            84,405             99.18                99.18                 92,184                   97.33                97.33               100,680             95.52           95.52          109,959              93.74         93.74          120,094
1 ona                   133.79         133.79            43,992           136.98              136.98                   46,329                 140.25              140.25                   48,791          143.60         143.60              51,383          147.02         147.02             54,113
Kansas                  140.07         140.07            44.646           140.08              140.08                   48,050                 140.10              140.10                   51,713          140.11         140.11              55,656          140.12         140.12             59,900
Kent ucky               117.89         117.89            96; 062          121.61              121.61                 104,849                  125.44              125.44                 114,441           129.39         129.39            124,911           133.47         133.47           136,338
Louisiana                 91.43         91.43            95,074             95.38               95.38                103,757                    99.49               W.49                 113,232           103.79         103.79            123,573           108.27         108.27           134,858
Maine                   126.01         126.01            29,204           125.04              125.04                   31,303                 124.08              124.08                   33,554          123.13         123.13              35,966          122.18         122.18            38,551
Mary 1and               223.12         218.25           138,261           233.14              216.04                 146,696                  243.61              219.98                 160,106           254.56         227.45            177,439           265.99         230.54           192,773
Massachusetts           131.63         131.63           122,600           122.41              122.41                 122,072                  113.84              113.84                 121,546           105.87         105.87            121,023             98.46          98.46          120,501
Michigan                181.08         181.08          287,273            189.42              189.42                 306,271                  198.15              198.15                326,525            207.28         207.28            348,119           216.84         216.84           371,141
Minnesota               277.05         218.25           119.069           298.33              216.04                 123,Z$9                 321.26               219.98                 132,277           345.94         227.45            143,588           372.52         230.54           152,795
Mississippi               68.90         68.90            47;117             70.27                70.27                 49,559                   71.66               71.66                  52,128            73.09           73.09            54,829             74.54         74.54            57,671
Missouri                  96.45         96.45            87,991             96.07               96.07                  95,119                   95.69               95.69                102,825             95.31          95.31           111,155             94.93         94.93           120,160
Mont ana                187.44         187.44            20,695           196.85              196.85                   22.525                206.74               206.74                   24,517          217.12         217.12              26,684          228.02         228.02             29,044
Nebraska                157.44         157.44            30,617           159.90              159.90                   32;976                 162.40              162.40                   35,516          164.94         164.94              38,253          167.52         167.52            41,200
Nevada                  157.34         157.34            25,755           151.90              151.90                   29,660                 146.65              146.65                   34,158          141.58         141.58              39,337          136.69         136.69            45,302
New Hanqxhi re          136.29         136.29             188342          120.47              120.47                   19,863                 106.49              106.49                   21,510            94.13          94.13             23,294            83.20         83.20            25,226
Neu Jersey              225.04         218.25           221.344           224.13              216.04                 234,287                 223.23               219.98                255,093            222.33         222.33            275,681           221.43         221.43           293,595
New Mexico                87.19         87.19            34; 367            81.49               81.49                  36,377                   76.16               76.16                  38,506            71.18           71.18            40,759            66.52         66.52            43,143
Neu York                230.81         218.25           758,923           229.85              216.04                 786,614                 228.89               219.98                838,676            227.93         227.45            907, Wo           226.98         226.98           948,782
North Carolina          106.49         106.49           135.230           102.34              102.34                 147.498                    98.35               98.35                160,878             94.52          94.52           175,473             90.83         90.83           191,391
North Dakota            175.02         175.02             13:468          172.23              172.23                   14;065                 169.49              169.49                   14,688          166.80         166.80              15,339          164.15         164.15             16,019
Ohio                    127.97         127.97           256,455           136.46              136.46                 285,094                  145.51              145.51                316,931            155.16         155.16            352,323           165.46         165.46           391,668
Oklahoma                187.54         187.54           102,953           190.56              190.56                 112,551                  193.64              193.64                 123,044           196.77         196.77            134,515           IW.94          199.94           147,056
Oregon                  219.10         218.25            98,897           219.09              216.04                 106,250                 219.08               219.08                 116,941           219.07         219.07            126,913           219.06         219.06           137,736
Pennsylvania            171.47         171.47           292,963           177.74              177.74                 313,914                  184.24              184.24                336,363            190.99         190.99            360,417           197.97         197.97           386,192
Rhode Island              85.98         85.98             19,920            79.40               79.40                  20,703                   73.32               73.32                  21,517            67.71          67.71             22,363            62.53         62.53            23,242
South Carol ina         117.73         117.73            75.643           113.32              113.32                   79.717                 109.07              109.07                   84,010          104.98         104.98              88,534          101.05         101.05            93,302
South Oakota            139.28         139.28            11;962           143.28              143.28                   12;979                 147.40              147.40                   14,083          151.63         151.63              15,281          155.98         155.98             16,581
Tennessee                 85.11         85.11           111,870             84.05               84.05                123,207                    82.99               82.99                135,694             81.95          81.95           149,447             80.93         80.93           164,593
Texas                   102.72         102.72          401,196            101.41              101.41                 448.519                  100.13              100.13                501,424              98.85          98.85           560,569             97.59         97.59           626,691
Utah                    205.97         205.97            42;989           207.38              207.38                   47;050                208.80               208.80                   51,494          210.23         210.23              56,358          211.67         211.67            61,682
Vermont                 210.62         210.62            22,496           212.90              212.90                   24,973                215.20               215.20                   27,723          217.52         217.52              30,776          219.87         219.87            34,165
Virginia                149.70         149.70           126,428           147.15              147.15                 137,318                  144.63              144.63                 749,147           142.16         142.16            161,994           139.74         139.74           175,948
Washington              222.30         218.25           189,322           237.37              216.04                 203,803                 253.45               219.98                2::, :g            270.63         227.45            253,758           288.97         230.54           279,711
Uest Virginia             72.39          72.39           33,917             74.84               74.84                  37,133                   77.38               77.38                                    80.00          80.00             44,506            82.72         82.72            48,725
Ui sconsi n             174.71         174.71            99,213           186.95              786.95                 107,482                 200.05               200.05                 116;441           214.06         214.06            126,147           229.05         229.05           136,661
Uyomi ng                197.13         197.13             12,595          202.09              202.09                   14,268                207.17               207.17                   16,163          212.38         212.38              18,309          217.73         217.73            20,741
Guam                    397.78         218.25               2:222         466.53              216.04                      2.268              547.16               219.98                     2,382         641.73         227.45                2,539         752.65         230.54              2,654
Puerto     Rico           26.75          26.75            11;469            27.61                27.61                 10;938                   28.50               28.50                  10,431            29.41          29.41               9,948           30.36         30.36              9,487
Virgin      islands     258.81         218.25               3,633         286.13              216.04                     3,550               316.34               219.98                     3,569         349.74         227.45                3,642         386.66         230.54              3,644

10TAL                  S158.73        $150.47      $6,668,757           S161 .40          S150.07          $7,212,524                  $164.60             $151.00          $7,857,125                    $168.36        $152.55       $8,584,479            $172.75        $153.51      $9,331,573
Special Match         ,ings                             (80,000)                                               (90,000)                                                          (90,000)                                                   (90,000)                                          (90,000)
ADJ TOTAL                                          $6,588,757                                               $7,122,524                                                      $7,767,125                                                 $8,494,479                                        $9,241,573
                                                                                                                                                  >>>      TABLE 7 <<<


                                                                                                                                         125% COST PER RECIPIENT                              CAP
                                                                                                                                  (CPR in dol(ars,                      Ah       in thousands)
                          . ---------------------------------                      --------    --------    -----------------------------------------------------------------------------------------------------
                                   1995                  125%           1995          1996         125%                1996                  1997                125%                     1997                   1998          125%             1998            1999          125%             1999
                                     CPR          CPR CAP                Ackn           CPR   CPR CAP                    Adm                   CPR CPR CAP                                  Ah                     CPR   CPR CAP                   Acin           CPR   CPR CAP                   Adm
                              ------                 ------         ------       ------        ------             ------                ------               ------                  ------                 ------        ------            ------         ------        ------            ------
A 1abama                        95.94               $95.94         $71,078         96.30       $96.30          $76,329                    96.66             $96.66                 $81,968                    97.03       $97.03          $.88,024           97.39       $97.39          $94,527
Alaska                        323.01                 181.88          17,713      326.85        180.00             19,762                330.74               183.31                  22,688                 334.67        189.54            26,446         338.65        192.11            30,217
Arizona                       126.73                 126. Z3       125,179       112.61        112.61          145,485                  100.05               100.05                169,087                    88.90         88.90         196,517            78.99         78.99         228,396
Arkansas                      118.26                 118.26         48,968       t20.93        120.93            53,011                 123.67               123.67                  57,388                 126.48        126.48            62,126         129.34        129.34            67,256
California                    181.67                 181.67     1,135,574        187.30        180.00      1,212,143                    193.10               183.31            1,329,865                    199.08        189.54       1,481,366           205.25        192.11       1,617,526
Colorado                      120.78                 120.78         49,817       119.05        119.05            52,660                 117.33               117.33                  55,666                 115.64        115.64            58,843         113.98        113.98            62,202
Connect i cut                 145.50                 145.50         67,241       136.03        136.03            69,637                 127.18               127.18                  72,118                 118.90        118.90            74,688         111.16        111.16            77,350
Delaiiare                     201.10                 181.88          18,928      204.32        180.00            21,119                 207.59               183.31                  24,246                 210.91        189.54            28,264         214.29        192.11            32,296
Dist.     of Col.             251.57                 181.88         29,667       250.56        180.00            31,145                 249.55               183.31                  33,646                 248.55        189.54            36,905         247.55        192.11            39,679
Florida                         85.41                  85.41       250,760         79.35         79.35         276,249                    73.72                73.72               304,330                    68.49         68.49         335,265            63.62         63.62         3698345
Georgia                       113.57                 113.57        161,838       109.93        109.93          174,742                  106.41               106.41                188,676                  103.00        103.00          203,720            99.70         99.70         219,963
Hanai i                       157.63                 157.63         24,798       156.63        156.63            25,895                 155.65               155.65                  27,040                 154.66        154.66            28,236         153.69        153.69            29,484
Idaho                         206.19                181.88          23,352       210.21        180.00            25,429                 214.30               183.31                  28,495                 218.47        189.54           32,419          222.73        192.11            36,156
Illinois                      139.33                 139.33        258,668       144.00        144.00          276,958                  148.84              148.84                 296,540                  153.83        153.83          317,508          158.99        158.99          339,957
Indiana                       101.06                 101.06         84,405         99.18         99.18           92,184                   97.33                97.33               100,680                    95.52         95.52         109,959            93.74         93.74         120, D94
1owa                          133.79                133.79          43,992       136.98        136.98            46,329                 140.25               140.25                  48,791                 143.60        143.60            51,383         147.02        147.02            54,113
Kansas                        140.07                 140.07         44,646       140.08        140.08            48,050                 140.10               140.10                  51,713                 140.11        140.11            55,656         140.12        140.12            59,900
Kentucky                      117.89                 117.89         96,062       121.61        121.61          104,849                  125.44              125.44                 114,441                  129.39        129.39          124,911          133.47        133.47          136,338
Louisiana                       91.43                  91.43        95,074         95.38         95.38         103,757                    99.49                99.49               113,232                  103.79        103.79          123,5i3          108.27        108.27          134,858
Maine                         126.01                126.01          29,204       125.04        125.04            31,303                 124.08               124.08                  33,554                 123.13        123.13           35,966          122.18        122.18            38,551
Maryland                      223.12                 181.88        115,221       233.14        180.00          122,224                  243.61              183.31                 133,417                 254.56         189.54          147,864          265.99        192.11          160,639
Massachusetts                 131.63                 131.63        122,600       122.41        122.41          122,072                  113.84              113.84                 121,546                  105.87        105.87          121,023            98.46         98.46         120,501
Michigan                      181.08                181.08         287,273       189.42        180.00          291,037                  198.15              183.31                 302,069                  207.28        189.54          318,321          216.84        192.11          328,821
Minnesota                     277.05                 181.88         99,227       298.33        180.00          103,097                  321.26              183.31                 110,227                 345.94         189.54          119,656          372.52        192.1’I         127,324
Mississippi                     68.90                  68.90        47,117         70.27         70.27           49,559                   71.66                71.66                 52,128                   n.09          73.09           54,829           74.54         74.54           57,671
Missouri                        96.45                  96.45        87,991         96.07         96.07           95,119                   95.69                95.69               102,825                   ‘95.31         95.31         111,155            94.93         94.93         120,160
Mont ana                      187.44                 181.88         20,082       196.85        180.00            20,597                 206.74              183.31                   21, ~8                217.12         189.54            23,295         228.02        192.11            24,469
Nebraska                      157.44                 157.44         30,617       159.90        159.90            32,976                 162.40              162.40                   35,516                 164.94        164.94           38,253          167.52        167.52            41,200
Nevada                        157.34                 157.34         25,755       151.90        151.90            29,660                 146.65              146.65                   34,158                 141.58        141.58           39,337          136.69        136.69            45,302
New Hanpshire                 136.29                 136.29          18,342      120.47        120.47             79,863                106.49              106.49                   21,510                   94.13         94.13           23,294           83.20         83.20           25,226
New Jersey                    225.04                 181.88        184,459       224.13        180.00          195,203                  223.23              183.31                 212,570                 222.33         189.54          235,026          221.43        192.11          254,722
New Mexico                      87.19                  87.19        34,367         81.49         81.49           36,377                   76.16                76.16                 38,506                   71.18         71.18          40,759            66.52         66.52           43,143
New York                      230.81                 181.88        632,453       229.85        180.00          655,390                  228.89              183.31                698,872                  227.93         189.54          756,652          226.98        192.11          803,025
North     Carolina            106.49                106.49         135,230       102.34        102.34          147,498                    98.35                98.35               160,878                    94.52         94.52         175,473            90.83         90.83         191,391
North     Dakota              175.02                 175.02          13,468      172.23        172.23             14,065                169.49              169.49                   14,688                 166.80        166.80            15,339         164.15        164.15            16,019
Ohio                          127.97                 127.97        256,455       136.46        136.46          285,094                  145.51              145.51                316,931                   155.16        155.16          352,323          165.46        165.46          391,668
Oklahoma                      187.54                 181.88         99,848       190.56        180.00          106,3?2                  193.64               183.31                116,480                  196.77        189.54          129,576          199.94        192.11          ; ::, ;;;
Oregon                        219.10                 181.88         82,417       219.09        180.00            88,526                 :;.      l))        183.31                   97,847                219.07         189.54          109,807          219.06        192.11
Pennsylvania                  171.47                 171.47        292,963       177.74        177.74          313,914                                      183.31                 334,657                  190.99        189.54          357,689          197.97        192.11          374; 754
Rhode Island                    85.98                  85.98         19,920        79.40         79.40           20,703                   73;32                73.32                 21,517                   67.71         67.71           22,363           62.53         62.53          23,242
South CaroLina                117.73                 117.73          75,643      113.32        113.32            79,717                 109.07               109.07                  84,010                 104.98        104.98            88,534         101.05        101.05           93,302
South Oakota                  139.28                 139.28          11,962      143.28        143.28             12,979                147.40              147.40                   14,083                 151.63        151.63            15,281         155.98        155.98            16,581
Tennessee                       85.11                  85.11       111,870         84.05         84.05         123,207                    82.99                82.99               135,694                    81.95         81.95         149,447            80.93         80.93         164,593
Texas                         102.72                 102.72        401,196       101.41        101.41          448,519                  100.13               100.13                501,424                    98.85         98.85         560,569            97.59         97.59         626,691
Utah                          205.97                 181.88         37,961       207.38        180.00            40,838                 208.80               183.31                  45,208                 210.23        189.54            50,813         211.67        192.11           55,983
Vermont                       210.62                 181.88          19,426      212.90        180.00            21,114                 ;;: .::             183.31                   23,615                217.52         189.54            26,817         219.87        192.11           29,852
Virginia                      149.70                 149.70        126,428       147.15        147.15          137,318                                       144.63                749,147                  142.16        142.16          161,994          139.74        139.74          175,948
Wash i ngton                  222.30                 181.88        157,773       237.37        180.00          169,805                  253:45               183.31                Ig,;;;                   270.63        189.54          211,463          288.97        192.11          233,084
Uest Virginia                   72.39                  72.39        33,917         74.84         74.84           37,133                   77,38                77.38                                          80.00         80.00          44,506            82.72         82.72          48,725
Uisconsin                     174.71                 174.71         99,213       186.95        180.00          103,486                  200.05              183.31                 106:699                 214.06         189.54          111,697          229.05        192.11          1;;,;;;
Uyomi ng                      197.13                 181.88          11,621      202.09        180.00             12,708                207.17               183.31                  14,301                 212.38        189.54            16,340         217.73        192.11
Guam                          397.78                 181.88            1,852     466.53        180.00               1,890               547.16               183.31                    1,985               641.73         189.54              2,116        752.65        192.11             2:212
Puerto      Rico                26.75                  26.75         11,469        27.61         27.61            10,938                  28.50                28.50                 10,431                   29.41         29.41             9,948          30.36         30.36            9,487
Virgin      Islands           258.81                 181.88           3,028      286.13        180.00               2,958               316.34               183.31                    2 #974              349.74         189.54              3,035        386.66        192.11             3,037

TOTAL                      %158.73             $141.46$6,386,125                $161.40       $139.92     %,838,934                  $164.60            $140.28$7,420,527                             $168.36            $141.89$8,116,367                $172.75       $142.21      $8,791,989
Speciat Match         s    ‘ings                                (80,000)                                      (90,000)                                                   (90,000;                                                          (90,000:                                       (90,000)
ADJ TOTAL                                                  $6,306,125                                     %, 748,934                                                $7,330,527                                                        $8,026,367                                     $8,701,989
Flexibility and Administrative Reliefi Unlike the other options, this alternative would not

reduce the administrative burden currently experienced by States and the Federal

Government. Though they would not have to allocate costs between the AFDC, Food

Stamp and Medicaid programs, States would continue to meet current reporting

requirements.


Costs Based on historical data through FY 1993, we project that a cap on

reimbursement at 150 percent of the national median would reduce the Federal share of

administrative funding by $839 million from FYs 1995-1999. Using the 125 percent cap,

the Federal share of administrative funding would be reduced by $2.9 billion from FYs

1995-1999. A cap approach only controls the growth at the margin based on those States

that exceed the cap. As States continue to report increases in administrative costs, the

national median and therefore, the Federal cap would increase correspondingly.


Disparity This option would reduce some of the funding disparity that exists between

States. States with the highest cost would see their cost per recipient levels reduced,

closing the funding gap somewhat.


Predictability This option would not improve predictability in the system. The system

would still be dependent on the cost allocation plans submitted by the States.


OPTION 5: FIAT PERCENT

The final option reimburses each State on the basis of its ratio of administrative cost to
total program cost (see Table 8).

Specifically, we calculated the FY 1993 ratio of administrative cost to total program cost
for each State. We then applied that ratio (or percentage) to an estimated benefit
payment in subsequent years. (AFDC, Medicaid and Food Stamp benefit payments
combined increased by 17.8 percent annually.) For example, Alabama’s ratio of
administrative cost to total program cost is 3.6 percent in FY 1993. The estimated total
benefit payment for Alabama is $2.5 billion in FY 1995. To calculate Alabama’s FY
1995 Federal share of administrative costs, we applied the 3.6 percent to benefit
payments. This resulted in an expenditure of $91.6 million in administrative costs for the
Federal Government to Alabama.

We adjusted for savings already realized by the AFDC and Food Stamp programs by the
reduction in special matching rates by subtracting the estimated savings amount from
total administrative costs.




                                             16

                                                                                            >>>     TABLE 8 <<c



                                                                                              FLAT PERCENTAGE
                                                                                              ($ in thousands)
                     . ----------     -------        -------------------------------------------------------------------
                           FY 1993                 FY 1994                  FY 1995                    FY 1996             FY 1997                   FY 1998            FY 1999
                           A&/Tot                           Ah                       Adn                       Adm               Adm                          Ackn          Ah
                                        ---------------------------------------------                                              ----------------------------
AI abama                      3.6%!                ‘--
                                                   $75,141 ““”           “--
                                                                        $91,608“--              $111,683                 $136,157                 $165,994             $202,370
Alaska                        9.3%                   28,796               34,303                   40,863                   48,678                     57,988             69,078
Arizona                       6.2%                 125,910              171,069                  232,425                  315,787                    429,047            582,929
Arkansas                      4.1%                   48,626               56,591                   65,859                   76,646                     89,200            103,809
California                                      1,074,635            1,254,571                1,464,635                1,709,872                I, W6,171            2,330,408
Colorado                      ::E                    53,339               63,815                   76,349                   91,345                   109,287             130,753
Connect i cut                 4.4%                   75,250               90,322                  108,412                  130,126                   156,189             187,472
Dela~are                      8.2%                   19,009               22,651                   26,991                   32,162                     38,325             45,668
Dist.     of COL.                                    42,080               48,169                   55,139                   63,117                     72,249             82,703
Florida                       ;:;                  260,454              328,316                  413,859                  521,692                    657,620            828,964
Georgia                       5.2%                 164,246              194,331                  229,928                  272,045                    321,876            380,835
Hawaii                        5.7%                   26,077               29,900                   34,283                   39,310                     45,073             51,680
Idaho                         7.4%                   24,553               28,655                   33,443                   39,030                     45,550             53,160
Illinois                                           258,188              295,440                  338,067                  386,844                    442,659            506,527
Indiana                       ?:%                    84,761             101,531                   121,620                 145,683                    174,506            209.033
I oua                         4.7%                   44,279               49,430                   55,180                   61,598                     68,763             76;762
Kansas                        4.6%                   47,301               58,049                   71,238                   87,423                   107,287             131,663
Kentucky                      4.3%                   93,683             108,844                   126,459                 146,924                    170,701             198,327
Louisiana                     2.2%                 100,024              125,330                  157,038                  196,768                    246,550            308,926
Maine                         3.7%                   29,818               34,978                   41,033                   48,134                     56,466             66,239
Haryl and                     7.6%                 129,669              149,221                   171,722                 197,615                    227,412            261,703
Massachusetts                 4.5%                 141,831              162,667                  186,565                  213,973                    245,407            281.460
Michigan                      6.4%                 281,616              313,791                  349,642                  389,590                    434,102            483; 699
Minnesota                     7.3%                 132,215              147,817                  165,260                  184,761                    206,563            230,938
Mississippi                   3.0%                   48,742               55,785                   63,845                   73,070                     83,628             95.712
Missouri                      3.8%                   92,344             113,250                   138,889                 170,332                    208,894            256; 186
Montana                       5.4%                   19,953               22,789                   26,028                   29,727                     33,952             38,778
Nebraska                      5.6%                   30,606               35,492                   41,158                   47,727                     55,346             64,181
Nevada                        6.2%                   25,584               33,706                   44,405                   58.502                     77,073            101.540
New Hampshire                 5.5%                   21 #933              30,758                   43,134                   60; 489                    84,827           118;958
Neti Jersey                   6.3%                 241,409              289,610                  347,434                  416,804                    500,024            599,860
Neu Mexico                    4.3%                   36,5~                43,608                   51,997                   62,000                     73,927             88,148
Neii York                     5.4%                 850,164              979,117               1,127,628                1,298,666                1,495,647            1,722,506
North     CaroLina            4.3%                 137,614              166,600                  201,690                  244,1Zf                    295,603            357,865
North     Dakota              5.0%                   13,886               15,615                   17,558                   19,744                     22,201             24,964
Ohio                          4.3%                 234,633              265,290                  299,953                  339.144                    383,456            433.559
Oklahoma                      7.3%                   98,365             112,321                   128,258                 146;456                    167,236             190;965
Oregon                        8.8%                   98,359             114,771                   133,920                  156,264                   182,337            212,760
Pennsylvania                  5.1%                 297,308              346,414                  403,630                  470,297                    547,975            638.482
Rhode Island                  3.2%                   21,751               25,654                   30,258                   35,687                     42,091             49; 644
South Carolina                4.4%                   83,752             102,989                   126,643                  155,Z51                   191,499            235,482
South Dakota                  4.1%                   11,483               12,978                   14,668                   16,578                     18, i37            2~8176
Tennessee                     3.6%                 109,662              130,392                   155,041                  184.349                   219,197            260.633
Texas                         4.5%                 403,683              507,660                  638,419                  802; 857              1,009,650            1, 269; 707
Utah                          7.0%                   41,862               48,829                   56,955                   66 #434                    77,490             90 #386
Vermont                       7.8%                   21,070               24,320                   28,071                   32,402                     37,400             43,169
Virginia                      7.4%                 125,098              146,026                   170,455                  198,970                   232,256            271,110
Washington                    7.3%                 168,135              197,670                  232,393                  273,216                    321,211            377,636
Uest Virginia                 2.2%                   34,524               42,121                   51,388                   62,695                     76,490             93,320
Uisconsin                     4.8%                   92,555             101,337                   110,953                  121,481                   133,009             145,630
~:i      ng                   7.2%                   11,839                14,281                  17,226                   20,778                     25,063             30,232
                             10.3%                     3,057                 3,375                   3,726                    4,114                      4,542              5,015
Puerto    Rico
               9.6%                   12,919                13,235                  13,559                   13,891                     14,231             14,580
Virgin    Islands
           15.1%                     3,832                 4,059                   4,300                    4,555                      4,826              5,112

TOTAL
                         5.8%         .$6,754,198      $7,961,449                     $9,401,275             $11,122,414              .S13,184,803      $15,662,402
Sp Match Savings
                               ($90,000)       ($90,000)                      ($90,000)                ($90,000)                ($90,000)         ($90,000)
AOJ TOTAL
                                  $6,664,198$7,871,449                            $9,311,275             $11,032,414              $13,094,803$15,572,402
E?U’-
Adequaq States would have little incentive to reduce administrative costs under this
option, since administrative reimbursement would be tied to benefit payments rather than
the actual cost of administering these programs. States most at risk under this option are
those with a relatively low ratio of administrative costs to benefit payments. States with a
lower percent would be held to this level. This outcome is similar to the block grant
option which freezes States at their FY 1993 funding levels, then increases in subsequent
years for inflation only.

Flexibility and Administrative Relief Like many of the other options, this option would
simpli& the system for funding administrative costs for the States and the Federal
Government. States could eliminate or modify their burdensome cost allocation system
and increase their flexibility in the use of these funds.

Costs This option illustrates that not all options necessarily result in cost savings. In
fact, based on our assumptions, there would be virtually no cost control under this
option. Based on historical data through FY 1993, we project that by FY 1999, the
Federal share would be $16.8 billion more than it would be under the current system. By
basing administrative funding as a percentage of benefit costs, it allows the benefit levels
to drive the allowable level of administrative costs. This method even fails to recognize
the fact that in recent years, as a percent of total program costs, administrative costs
have been shrinking.

Disparity There would continue to be disparity among the States since future
administrative funding will be based on the current ratio of administrative costs to total
program costs.

Predictability Budgeting for administrative costs under this approach would continue to
be done retrospectively since it will be based on annual program costs.




                                             17

CONCLUSION

The issue of reforming the administrative cost allocation system is very relevant today
given the considerable interest in “reinventing” Federal Government operations. If action
is not taken, this cost allocation system will remain burdensome to both the States and
the Federal Government. It will also be costly and difficult to audit. Therefore, we
believe that opting to reform the system is preferable to an approach which maintains
the status quo with enhanced monitoring capabilities. We also believe that reform should
be implemented concurrently with enhanced efforts to insure quality in the delivery of
services.

This study illustrates several of many possible alternatives that seek to address the
fundamental problems in the current cost allocation system. We recognize that as a
result of implementing one of these options, States may not receive as much Federal
funding as they might under the current system. However, significant benefits will accrue
to both the States and the Federal Government by simpli&ing the administrative cost
funding system. These benefits include: increased flexibility, reduced growth in cost,
minimized funding disparity among States, and greater predictability for Federal
budgeting and planning.

These alternative funding approaches are meant to serve as examples of what can be
done. Any of the options could be modified to moderate their impact on State budgets
or to achieve greater savings. They could even be adapted to increase Federal financing
of administrative costs should policy makers wish to do so. The options would then
provide more control and flexibility in spending.

We also believe that some combination of the options might have a number of
advantages. For example, the block grant alternative could be combined with the
standard cost per recipient approach. Under this combined alternative, States would
receive their block grant amount as described under Option 2 and an additional standard
amount (see Option 3) for the increase in the number of recipients for each year. By
combining these two options, States would not have to absorb the increased cost of
additional recipients since they would receive reimbursement for them. In addition,
States would gain greater discretion over the use of their administrative funds. This
alternative would also decrease States’ administrative burden since they could eliminate
or modi& their cost allocation methodologies and reporting requirements for these three
programs. Federal accountability and monitoring concerns would also be addressed.

Finally, programs other than the three discussed in this report could be considered as
could different combinations. For example, administrative costs for Child Support
Enforcement programs could have been substituted for Medicaid to illustrate other
possibilities. Our bottom line is that the system for reimbursing administrative costs
should be simplified and made more controllable, predictable and efficient.




                                            18

        APPENDIX                 A

Administrative Costs and Recipients, 1989-1993




                     A-1
                            ADMINISTRATIVE COSTS

                                      1989-1993

                          (constant dollars = 1993 dollars)



                 1989      1990      1991      1992      1993	    %
                                                                  Change
AFDC

Current $        $:9;;    $;,~       $1,405    $1,492   $1,517     11.69Z0

Constant $          ?        ?        1,491     1,537    1,517     -4.2%

Medicaid

Current $         1,654     2,005     2,155     2,365    2,682     62.2%

Constant $        1,927     2,216     2,286     2,436    2,682     39.2%

Food Stamps

Current $         1,172     1,247     1,349     1,465    1,540     31.4%

Constant $        1,365     1,378     1,431     1,509    1,540     12.8%





                                      TABLE 2

                                 TOTAL RECIPIENTS
                                       1989-1993
                                    (in thousands)


               1989       1990       1991      1992      1993     %
                                                                  Change
AFDC           10,934     11,466     12,596    13,625    14,143   29.3%
Medicaid       23,511     25,255    28,280     31,150   33,432    42.2910
Food Stamps    18,764     19,931    22,625     25,403   26,982    43.8%




                                        A-2

                     ADMINISTRATIVE COST PER RECIPIENT
                                      1987-1993
                          (constant dollars = 1993 dollars)


                    1987      1988       1989            1990   I 1991     1992   1993
                                                                I

 AFDC               $122      $143       $145            $126       $118   $113   $107
 Constant
 Dollars                                                        ,
                                                                I

 Medicaid            73        80            82           88         81     78     80
 Constant

 Dollars

 Food Stamps         69        73            73           69    I    63     59     57

 Constant

 Dollars



                                             TABLE 4

                 Correlation of Percent Change in Administrative Costs
                            and Percent Change in Recipients


                                 1 Correlation Coefficient
 1987-1988                       I .0427
 1988-1989                       I .1532
 1989-1990                           .2166
 1990-1991                           .0656
 1991-1992                           .1742
  1992-1993                          .2214

Note: The Correlation Coefficient (r) is a measure of the association between two
variables, X and Y. A perfect correlation of + 1 indicates that all possible values of X
and Y lie on a straight line with a positive slope. A perfect negative correlation, -1,
indicates that all possible values of X and Y lie on a straight line with a negative slope.
A correlation of O means the variables are uncorrelated.




                                                  A-3

~ecalculation    is based onannual data from all States and territories. The independent
variable (X) is the percent change in the number of recipients in each State or territory
and the dependent variable (Y) is the corresponding change in administrative cost.




                                           A-4

   APPENDIX              B

Agency Comments and OIG Response




              B-1
RESPONSE TO AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Management
and Budget, the Assistant Secretary for Planning and Evaluation, and the Asistant
Secretary for Children and Families. They state that we have not necessarily
demonstrated a serious problem in this area, expressed concerns about the way we
estimated future costs and possible savings, and pointed out that there may be valid
reasons for some disparities in costs among the States. The ACF also requested a fuller
discussion of the pros and cons of the various funding alternatives. The Health Care
Financing Administration provided informal comments on early drafts, but did not
provide comments on the latest one.

We recognize the legitimate concerns that have been raised and have considered them
carefully. We have revised the report in several places, primarily to focus more
succinctly on the need to change the current system and to update our savings
projections based on the latest available data.

At this point we believe that we have an honest disagreement about the nature of this
problem and its appropriate solution. Perhaps this disagreement stems from differences
in overall focus.

The agency comments focus on whether total costs within the current system are out of
control. There is some evidence offered, such as recent declines in cost per recipient
data and a levelling off of the rate of increase in Federal costs, that there is no real
problem here. We have reservations about the significance of these indicators and we
address them within the report itself. More importantly though, we think that these
indicators do not address the most important issue.

We think that the real issue is the current cost reimbursement system itself. The system
puts us at risk because we have difficulty knowing what we are paying for, whether it is
cost effective, and what we will have to pay out in the future. It provides little incentive
to economize, and is itself an inefficient system.

Agency comments also caution that our proposals could harm some States by not taking
into account their peculiar needs. We see similar problems of inequity with the current
system.

Thus, we continue to believe that the current cost reimbursement system for welfare
administrative costs needs to be replaced for the following reasons.

       o	     Under the current system we are not sure of what we are paying for and
              whether expenditures are cost-effective. It would require a considerable
              investment in expanded auditing and monitoring to find out. These costs
              would be prohibitive especially in an environment of declining resources.
              Our Office of Audit Services has reported that the current cost allocation



                                            B-2

              system results in mountainous paperwork, labyrinthine accounting and
              detailed auditing and negotiation processes.

       o	     We can not predict with any degree of certainty under the current system
              what the States are going to charge us in the future. This issue becomes
              very important in thinking about how much the Federal Government wants
              to pay for administrative costs under welfare reform.

       o	     There is significant cost disparity among the States, without any clear
              relation to outcomes. While there are reasons offered for some disparity,
              there is no solid evaluated data that rules out efficiency as a factor in cost
              disparity. We also could find no significant correlation between
              administrative costs and numbers of recipients on an individual State-by-
              State basis.

For these reasons, we believe that the current cost allocation system should be replaced
by a system that provides adequate funding for States, incentives for efficient operations,
decreased Federal monitoring and oversight, and predictable Federal expenditures. We
think that the options presented in this report are a good place to start in developing a
new welfare administrative cost system.

We want to caution the reader that the dollar estimates for the various options are
illustrative only. In further developing a new administrative cost system, it will be
necessary to prepare detailed estimates based on clearly defined assumptions, using the
most recent information available.

The following are our responses to each of the offices that we received comments from.

Assistant Secretary for Management and Budget

Outvear estbnates are diiRmmt than Mid-S&n       J!Miinates

There are, of course, numerous methods that could be used to estimate future

administrative expenditures. We recognize that our estimates are higher. We felt that

the best predictor of the future was actual past experience over a number of years, so we

used a 5 year average, actual cost by State, to predict future costs. We have now

updated these projections in this final report using a 5 year period of FY 1989- FY 1993,

the most recent years for which reliable State data is available.


LM%rence between adminkm tive cat m wth in the AEDC and Food Stamn vmgra m. and

in h M&aid urwra m

We realize that there have been differences among the three programs in their rates of

administrative cost growth. However, we believe that administrative cost issues could be

addressed more effectively by looking at a more global perspective rather than a narrow

perspective of individual programs. We know that at the State and local level many of

the administrative functions and personnel are overlapping among these three programs.




                                            B-3

We believe that a prospective administrative cost system that includes all three would
provide the greatest flexibility and the most incentives for an efficient operation.


Rehztionshir) between m wth in admikrative      costr and casekurd growth
We could find no significant correlation between costs and workload on a State-by-State

basis in the current cost reimbursed system. There are a variety of factors that

contribute to administrative costs. It is difficult to ascribe to any one factor precisely how

much it affects the growth.

  .   .
LMrxmtv among State-s
While there are many reasons given for the disparity, we found no solid programmatic or

evaluative data that explained what those reasons are and whether they are good

influences on administrative costs. We also could find no solid data that would suggest

that some States should be spending more than twice what other States spend per capita

on administrative costs.


shDkdiC atkm of Cost Allocation Svstems

We agree that the long range goal should include even more programs and that the

current cost allocation system needs to be replaced. We believe that the three programs

we analyze in this report provide a good example of how funding for many programs

could be combined.


Assistant Secretary for Planning and Evaluation

Failure to ernriurs&e the &clineir it adinbdrative costs per case for welfare
When we began this study, we believed that a common indicator, such as cost per
recipient would be useful in looking at the rate of growth of administrative costs over
time. In fact we used it in early working drafts. However, as we conducted further
analysis, we could find no significant correlation between costs and recipients on a State-
by-State basis, and thus do not believe that it is a reliable indicator of the efficient use of
administrative funds over a given period of time. For example, we do not believe that
the recent decrease in cost per recipient for the three programs is necessarily indicative
of more efficient State operations. It seems to us to be much more the result of recent
dramatic increases in caseload with States unable to increase administrative resources
proportionately.

In regard to the selection of the years for our analysis, we only had complete data up
through 1992 when we prepared the official draft report. We agree that more cument
data would be better. We now have available the 1993 data and have included it in this
final report. We used this more recent data instead of the earlier data to update all of
our estimates. With regard to unit costs, the report does, as did the draft, indicate that
the time period used could affect the trend in unit costs.




                                             B-4

l%e retxxtk estimates of ROtential savingr are ovem~ated
We agree that the most current data should be used in making any estimates regarding
expenditures or savings. We also know that the savings are very sensitive to assumptions.
For that reason, it is probably useful to look at savings using different assumptions and
think about a range of numbers rather than an absolute amount. However, as noted in
the previous paragraph, we did update our estimates based on more recent data. Savings
estimates have been reduced as a result, although they remain significant for most
options.

State varihtibn k not bad w
We agree that State variations;n costs is not bad per se. However before financing such
variations it would be useful to know what we are paying for and why there is variation.
Because of the complexities in the accounting systems used, we do not believe in the case
of administrative costs that it is practical for us to be able to know what we are paying
for, what constitutes the variation, and what the outcomes are of that variation.

Assistant Secretary for Children and Families

2?ie retxwtdim not ertabli.rh that there k a maior ~roblern with W irw of admirdktnrtive
m
We believe that the two biggest problems with the current system are a lack of
accountability and a lack of cost predictability. Under the current system, we are not
sure of what we are paying for and whether expenditures are cost-effective. We also can
not predict with any degree of certainty how much we are going to pay in the future,
since States decide how much they are going to charge the Federal Government. We
also know that the current cost allocation system results in tremendous paperwork and
requires significant administrative oversight. We believe that there are other ways to
adequately reimburse States for administrative costs that will result in more efficient
operations at both the State and Federal level, and will provide predictable future
Federal costs.

l%e rewti doer not adkauatelv exulime the reasonr for the dirmuitkr among the States for
each of the three Dnnmuns
We noted the disparity among the States to indicate that some States require more dollar
inputs, per person, in their system than other States. We found a lot of anecdotal
evidence for this difference in inputs, but could find no solid programmatic or evaluative
data to explain the need for the difference in inputs. We also have questions about
whether these differences in inputs are related to differences in outcomes. We believe
that to try to accurately measure all the factors that influence costs and to relate those
inputs to outcomes would be extremely difficult and very costly. We fully acknowledge
that the needs of States may vaxy. We are not at all certain that the current system
responds better than any of the options we present.

l’he rernxt dixs not fudk add’rtxr the mos and cons of the vatious thndbw o@iOns
This report was meant to suggest logical options to the current cost reimbursement
system for administrative costs. These options have been discussed and debated at


                                          B-5
different times over the past ten years by various administrations. However, we did add
language is several places to remind the reader that some options might not address
specific problems encountered by each State. We point out that this is also a problem
with the current system. We also agree that once a general approach is decided upon,
more detailed analysis can be performed.     We had already stated this explicitly in the
report.




                                           B-6

      ,* ,...W,,
*.*                %

;“


       4
:     /                  DEPARTMENT OF HEALTH & HUMAN SERVICES
.
 8%
  ‘++QW
                                                                   ADMINISTRATION                  FOR CHILDREN AND FAMI
                                                                   Office   of   the   Assistant      secretary,   Suite   600
                                                                   370L’Enfant Promenade, S,W.
                                                                   Washington, D.C, 20447




                       DATE :        Deamber    16, 1994

                       TO:	         June Gibbs     Brown
                                    Inspector     General

                       FROM:        Mary Jo Bane
                                    Assistant Secretary~TQ_4_
                                      for Children and Families
                       SUBJECT: Comments - OIG Draft Report: IIwelfare                  Administrative
                                 costs,” OEI-05-91-01080


                       As requested, we have reviewed the subject Draft Report and find

                       it unchanged from the previous draft submitted to us for comments

                       in March 1993. While minor modifications have been made to the
                       current draft, a few of the comments we provided to the OIG
                       earlier this year have been incorporated. The substance of the
                       material in the “Background” and the five ‘Alternate Funding

                       Optionsm sections is the same as the 1993 Draft.

                       We have serious concerns about the present Draft. We believe

                       previously provided comments, along with those of HCFA and FNS,

                       should be incorporated. AS the report now stands, a distort@d

                       picture of administrative costs is given when the three programs

                       are combined. There are considerable differences in the policies
                       and procedures of the respective programs which are not taken
                       into account.
                       Furthermore, we believe that the report should make clear that

                       the present administration of these programs is not out of

                       control. We appreciate the concerns about the administrative

                       costs of thesa three programs, but the report does not provide

                       sufficient analysis to accurately portray the complexities of the

                       issues, and it does not sufficiently discuss the advantages and

                       disadvantages of the options available. Each of the listed

                       options could cause serious problems, and could adversely affect

                       specific States in different ways. We believe the discussion of

                       options should be expanded to fully discuss the consequences and

                       potential problems associated with each option. As it stands,

                       the options might be perceived as simple solutions to a very

                       complex issue.

                       In sunmary, the report does not:

                                (1) Establish that there is a major problem with funding of

                                administrative costs.



                                                            B-7

Page   2   -   June Gibbs Brown

       (2) Adequately explore the reasons for the disparities among

       the States for each of the three programs.

       (3) Fully address the pros and cons of the various funding

       op~ions.

We continue to believe that the administrative cost for tie three

programs needs to be examined in greater detail before any

conclusions or alternative options are developed.





                                  B-8

.*..-f.
.,     ..,.
      +“
               ”,   <(,




‘&
“..        \
                               DEPARTMENT OF HEALTH & I-IU,%IANSERVICES        office   of the Secre\a~



                                                                               Washington,     D.C.   20201




                                                                 DEC 20 /994
                          TO:	         June Gibbs Brown

                                       Inspector General

                          FROM :	      Assistant Secretary for

                                       Planning and Evaluation

                          SUBJECT :	 OIG Draft Report: “Welfare Administrative Cost%J”

                                       OEI-O5-91-O1O8O


                          This responds to your request for comments on the dratc OIG

                          report entitled, “Welfare Administrative Costs.” We are glad the

                          Office of the Inspector General addressed many of the concerns

                          raised regarding an earlier draft of this report. This is a

                          significantly improved report. However, several conceptual

                          problems remain.

                          �      Failure to em~hasize the declines in administrative costs
                                 p~                     According to data in the report, the

                                 rate of increase in administrative costs for both AFDC and

                                 food stamps is lower than the rate of increase in the number

                                 of clients in those two programs. Only for Medicaid do

                                 administrative costs increase faster than the increase in

                                 clients, suggesting that much of the problem is the rapid

                                 pace of health care inflation.

                                 While the draft report analyzes State administrative
                                 expenditure data from 1987 to 1992, more recent data for
                                 1993 and 1994 show a lower rate of increase. In fact, per
                                 client administrative costs have actually been declining

                                 recently, even in Medicaid. In addition, the report should

                                 discuss the reasons for its choice of starting and ending

                                 years, 1987 to 1992.

                          �	     The reDort’s estimates of Dotential savinas are overstated.
                                 The repqrt’s projections for administrative costs for AFDC,
                                 food stamps, and Medicaid are between $3.5 and $5.6 billion

                                 .-z    than the Administration’s Mid-Session Review

                                 estimates for 1995-1999. Since the report’s baseline

                                 projections are too high, the estimates of potential savings

                                 are also too high.

                          �	     �                  not bad   er se. The report sees
                                 disparities in p;r capita administrative costs and in rates
                                 of increase or decrease among States as inherently bad and
                                 in need of correction. But the report does not explain why

                                 disparity is bad and it should at least discuss the reasons

                                 why reducing disparity would lead to desirable outcomes.



                                                               B-9

Page 2 - June Gibbs Brown

     Disparities among States are to be expected, however, and

     many things could explain such variation. For example,

     Texas is cited as a State with low administrative costs per

     client, yet it is atypical. Texas has much lower Medicaid

     administrative costs than other States because it pays an

     insurance provider a per capita amount to finance most
     Medicaid services.  Since the insurance provider handles all
     the administrative            details,       the   State   has   minimal   Medicaid
     administrative       costs.




                                    David T. Ellwood





                                              B-10

               ����   ![(,
           �
 ..-   ‘                     ,.

~“
:
:
  -.
   %,*
      4*,.
       3 ,.
               Jg                        DEPART.MEINT    OF HEALTH     & HULMAN SERVICES                               Of f(ce or @W*



                                                                                                                        Washtngt6@w,43?
                                                                                                                                          Cretarj



                                                                                                                                             20.20~

                                                                               NOv2 I    1994




                                                                                        Jw’/
                                  MEMowUM          TO THE INSPECTOR            GENERAL

                                  From        :   Kenneth     S.    Apf el
                                                  Assistant        Secretary      for   Management         and    Budget

                                  Subject:        OIG Draft   Report:            “Welfare        Administrative         Costs,”
                                                  OEI-O5-91-O1O8O

                                  This responds to your request for comments on the draft OIG

                                  report entitled, “Welfare Administrative Costs.’t We applaud the

                                  Office of the Inspector General for its efforts to identify a

                                  range of options for policymakers to consider in thinking about

                                  administrative costs and offer the following comments.

                                  �        O t ear est”
                                           ~
                                      -Session Estimates.

                                           The OIG~s projected administrative costs for the AFDC, Food

                                           Stamps and Medicaid programs, for FY 1995-FY 1999, are

                                           higher than current estimates contained in the

                                           Administration~s Mid-Session Review for 1995-1999.

                                           We recognize that there are many reasons for variance in
                                           long range estimates. Key among these is the time period
                                           used for the ‘~basis”of the estimate.  Beginning in 1989,
                                           and continuing through 1991, all three of these programs
                                           experienced explosive caseload growth, accompanied by
                                           substantial increases in benefits and administrative costs.
                                           However, in the last several years (1993”and 1994) caseload
                                           and costs     have   grown     at     substantially          lower     levels,        and
                                           these   lower    growth    rates  are reflected      in the
                                           Administrationts         Mid-Session estimates.
                                           My staff     will    provide  you with these     estimates.    I would
                                           note that there are many valid reasons for varying
                                           projections,       especially    in programs    experiencing   such
                                           fundamental       changes.
                                                                          .                             *
                                  ��       Difference between admzn istrative cost arowth n AFDC and
                                           Food Sta~.           and      n     e dicai~.       In recent      years,       AFDC and
                                           Food Stamps         administrative            costs   have    been     relatively
                                           stable,      with    moderate         growth     of less    than     ten     percent
                                           annually.         Expenditures            have been relatively             close     to
                                           Administration           estimates.           on the other       hand,       Medicaid
                                           administrative           costs      have been more volatile                and less

                                           accurately        projected.            In considering        future       options, this

                                           variance in administrative cost growth needs to recognize

                                           that approaches and solutions may be different for each of

                                           these programs.

                                  ��       ~d
                                           Re at”o s     etw e
                                           caseload aroWth . A variety of factors contribute to
                                           administrative costs, one of which is caseload. Other


                                                                                 B-n
          factors which influence administrative cost growth include
          policy changes such as waiver demonstrations and/or welfare
          reform, State FTE constraints, automated systems development
          costs, political and timing issues, economic issues and
          family composition.
     ��   DisDaritv amona Stateq.   The report recognizes that there
          are disparities across States in administrative
          costs/recipient.  In many cases this disparity is the result
          of variation in services provided by States, the
          comprehensiveness of their programs, and the e%tent to which
          they have sought to make clients more self sufficient by
          lowering caseload ratios.
     �                                                An anticipated

          outcome of implementing the proposed opti&s is that cost

          allocation systems and Federal monitoring could be

          simplified. To achieve such simplification may also

          necessitate inclusion of a broader spectrum of programs,

          including Foster Care, Child Support or related programs

          under the new funding mechanism.


     My staff has several other editorial recommendations that will be

     provided separately to your staff.





                                  B-12



——          .—
                      APPENDIX                  C


                              Endnotes


1. OMB “Circular A-87, “cost       Principles        for   State   and   Local
Governments. ~$Attachment A, p.    6.

2. Congressional Budget Office, “Reducing the Deficit.”              February

1992, p. 232.


3. Department of Health and Human Services, Office of the Inspector

General, Office of Audit Services. Draft report # A-12-92-00014,

Refo rminu the Svstem for Determination      of State and Local

Government AdministrativelIndirect Costs. May 21, 1991, pi.


4. Ibid, pp. iii.


5. Ibid, p. 25.


6. Ibid, p. i.


7. Savings estimates from the reduction of special match rates in

the AFDC program come from the Agency for Children and Families.

They estimate $40 million in savings in FY 95 and $50 million in

each succeeding year.     The Food and Nutrition Service in the

Department of Agriculture estimated savings at $40 million in FY 95

and each succeeding year. For ease of calculation, we use a figure

of $90 million in savings for each year from FY 95-FY 99.


8. The Census Bureau percentages used are published in: ‘tOverview

of Entitlement Programs, “ FY 1992 Green Book. Committee on Ways and

Means, U.S. House of Representatives. p.1384.





                                  c-1
